<html>
<title> - NATIONAL SCIENCE FOUNDATION FISCAL YEAR 2007 BUDGET REQUEST, PROGRAMS, AND SCIENCE PRIORITIES</title>
<body><pre>[Senate Hearing 109-1141]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 109-1141
 
                      NATIONAL SCIENCE FOUNDATION
                    FISCAL YEAR 2007 BUDGET REQUEST,
                    PROGRAMS, AND SCIENCE PRIORITIES

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON SCIENCE AND SPACE

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 2, 2006

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



                  U.S. GOVERNMENT PRINTING OFFICE
67-046                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ed8a9d82ad8e989e998588819dc38e8280c3">[email&#160;protected]</a>  


       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                     TED STEVENS, Alaska, Chairman
JOHN McCAIN, Arizona                 DANIEL K. INOUYE, Hawaii, Co-
CONRAD BURNS, Montana                    Chairman
TRENT LOTT, Mississippi              JOHN D. ROCKEFELLER IV, West 
KAY BAILEY HUTCHISON, Texas              Virginia
OLYMPIA J. SNOWE, Maine              JOHN F. KERRY, Massachusetts
GORDON H. SMITH, Oregon              BYRON L. DORGAN, North Dakota
JOHN ENSIGN, Nevada                  BARBARA BOXER, California
GEORGE ALLEN, Virginia               BILL NELSON, Florida
JOHN E. SUNUNU, New Hampshire        MARIA CANTWELL, Washington
JIM DeMINT, South Carolina           FRANK R. LAUTENBERG, New Jersey
DAVID VITTER, Louisiana              E. BENJAMIN NELSON, Nebraska
                                     MARK PRYOR, Arkansas
             Lisa J. Sutherland, Republican Staff Director
        Christine Drager Kurth, Republican Deputy Staff Director
             Kenneth R. Nahigian, Republican Chief Counsel
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
   Samuel E. Whitehorn, Democratic Deputy Staff Director and General 
                                Counsel
             Lila Harper Helms, Democratic Policy Director
                                 ------                                

                   SUBCOMMITTEE ON SCIENCE AND SPACE

                 KAY BAILEY HUTCHISON, Texas, Chairman
TED STEVENS, Alaska                  BILL NELSON, Florida, Ranking
CONRAD BURNS, Montana                JOHN D. ROCKEFELLER IV, West 
TRENT LOTT, Mississippi                  Virginia
JOHN ENSIGN, Nevada                  BYRON L. DORGAN, North Dakota
GEORGE ALLEN, Virginia               E. BENJAMIN NELSON, Nebraska
JOHN E. SUNUNU, New Hampshire        MARK PRYOR, Arkansas


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 2, 2006......................................     1
Statement of Senator Hutchison...................................     1
Statement of Senator Bill Nelson.................................    25
    Prepared statement...........................................    25
Statement of Senator Stevens.....................................     2
Statement of Senator Sununu......................................    27

                               Witnesses

Bement, Jr., Dr. Arden L., Director, National Science Foundation.     3
    Prepared statement...........................................     4
Leshner, Alan I., Ph.D., Chief Executive Officer, American 
  Association for the Advancement of Science.....................    33
    Prepared statement...........................................    35
Odom, Dr. Jerome D., Executive Director, University of South 
  Carolina Foundations...........................................    38
    Prepared statement...........................................    40
Washington, Dr. Warren M., Chairman, National Science Board......     9
    Prepared statement...........................................    11

                                Appendix

Inouye, Hon. Daniel K., U.S. Senator from Hawaii, prepared 
  statement......................................................    49
Lane, Neal, Malcolm Gillis University Professor; Senior Fellow, 
  James A. Baker III Institute for Public Policy at Rice 
  University; Former Director, National Science Foundation, 
  prepared statement.............................................    49
Response to written questions submitted by Hon. Kay Bailey 
  Hutchison to:
    Dr. Arden L. Bement, Jr......................................    51
    Dr. Jerome D. Odom...........................................    53
    Dr. Warren M. Washington.....................................    55


                      NATIONAL SCIENCE FOUNDATION
                    FISCAL YEAR 2007 BUDGET REQUEST,
                    PROGRAMS, AND SCIENCE PRIORITIES

                              ----------                              


                          TUESDAY, MAY 2, 2006

                               U.S. Senate,
                 Subcommittee on Science and Space,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:30 p.m. in 
room SD-562, Dirksen Senate Office Building, Hon. Kay Bailey 
Hutchison, Chairman of the Subcommittee, presiding.

        OPENING STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. I'm going to call our hearing to order 
and say that I'm very pleased to have you, Dr. Bement, and also 
Dr. Washington, the Director of the National Science Foundation 
and the Chairman of the National Science Board. We are very 
pleased that you could come and join us.
    In addition, I wanted to mention that Dr. Neal Lane, a 
former Director of the National Science Foundation, was 
scheduled for our previous hearing, and, when we needed to 
change the date, he was not able to attend, but I certainly 
have asked him to submit a statement for the record, and we'll 
look forward to hearing from him.
    I'm pleased that we have two such excellent panels, because 
this is a very important time in our country's history. We are 
engaged in an effort to really rejuvenate our emphasis on 
science and engineering in our country to increase the number 
of students and the world-class quality of students that we 
have had for all of our country's history, especially the last 
100 years. But I know all of you are familiar with the report 
that came from the Committee appointed to look into our science 
and technology education and research, called ``Rising Above 
the Gathering Storm,'' which has led to so much interest and 
focus on where we may not be going in the right direction, or, 
if we're going, maybe we're going a little too slow in the 
right direction. And I think that it is important for our 
Committee, as well as the Health, Education, and Labor 
Committee, to look into the National Science Foundation's part 
in all of this. Our part of the jurisdiction is research; 
theirs is the education part. And I am very hopeful that we can 
go forward with the President's Competitiveness Initiative and 
our PACE legislation--the PACE legislation being really based 
on the recommendations of the Augustine ``Rising Above the 
Gathering Storm'' report proposals and recommendations.
    So, I hope--Dr. Bement, you and I have talked about this a 
little bit, about the focus of the National Science Foundation 
and making sure that we are fulfilling the mission of hard 
sciences and engineering and technology innovation, which is 
what the National Science Foundation has done, and is doing 
very well, and, in light of this emerging challenge, whether we 
have enough of the complete focus of the National Science 
Foundation on these hard sciences. So, I will look forward to 
hearing your testimony on that, and also asking questions on 
that subject.
    With that, let me turn it over to the full Committee 
Chairman, who is one of the largest proponents that we have in 
the Senate on this initiative for science and engineering 
focus. Senator Stevens has held several hearings, and I'm 
having this hearing. There have been other subcommittee 
hearings on our part of this initiative, because we want to be 
major players in moving America forward toward more--
encouraging more children to go into science and engineering, 
and making sure that they have good teachers and that we have 
good research coming out of our country that is so important to 
our economy.
    Senator Stevens?

                STATEMENT OF HON. TED STEVENS, 
                    U.S. SENATOR FROM ALASKA

    The Chairman. Well, thank you, Madam Chairman.
    I, too, welcome you, each of you from the Foundation and 
from the Board. As Senator Hutchison said, I have been quite 
moved by the Augustine report, and I think most of us have 
been. I don't take that report to be critical of either of you 
or the entities that you chair. I think it really is critical 
of the system, as a whole, and our failure to understand the 
changes that have come about, particularly with the increased 
challenges from India and China in the terms of science and 
technology, engineering, really the total impact of our--
movement of so many of our industries to those areas has really 
changed the dynamics of our stimulus for our young people, the 
jobs available to them, and the future. I really have tried 
very hard to get the Congress, as a whole, to treat this 
problem similar to the way we treated the atomic energy problem 
and create a joint committee on this report, and to work with 
you and your organizations to fashion a way to rekindle the 
interest of our total U.S. community and taking the initiatives 
that must be started, must be fostered, really, to stimulate 
our young people and to provide incentives to them to once 
again make science and technology a priority, as far as our 
education system is concerned.
    So, we're still going to continue working on that in this 
Committee, and the hearings that Senator Hutchison is holding 
will be quite helpful. We hope we can at least get the Senate 
together in one body to move forward with suggestions that will 
help reach some of the targets that were set by the Augustine 
report.
    But I look forward to hearing your testimony. It does seem 
to me that we have to light a fire, and nothing short of a fire 
is going to really give us the intensity of consideration of 
these issues that is required. So, I'm pleased to be with you 
today, and look forward to staying with you as long as I can.
    Thank you.
    Senator Hutchison. Thank you.
    Dr. Bement?

   STATEMENT OF DR. ARDEN L. BEMENT, JR., DIRECTOR, NATIONAL 
                       SCIENCE FOUNDATION

    Dr. Bement. Got it, thank you.
    Chairman Hutchison, Chairman Stevens, thank you for this 
opportunity to testify on the importance of basic research to 
technology, innovation, and competitiveness.
    For over 50 years, NSF has been a strong steward of the 
Nation's scientific discovery and innovation process that has 
been crucial to increasing America's economic strength, global 
competitiveness, national security, and overall quality of 
life. Despite its small size, NSF has an extraordinary impact 
on scientific and engineering knowledge and capacity. Not only 
do we provide funding to the best of the best, we prioritize 
the research funding based on principles that have proven to be 
both robust and prophetic over the years.
    The most successful priorities are set by the research 
community itself in a bottom-up process that involves the 
brightest minds in the country advising us about where new 
opportunities exist. Through workshops, conferences, and 
professional meetings, proposals for new programs come to NSF 
from the community. For example, we closely monitor the nearly 
50,000 research proposals we receive each year for new ideas 
and opportunities within our served research communities. 
Through NSF external Committees of Visitors, Advisory 
Committees, and review panels, more than 13,000 outside experts 
regularly review NSF's research programs to help identify new 
opportunities.
    Priorities are coordinated among agencies through the 
National Science and Technology Council within the White House. 
Through regular meetings with agency heads and senior 
management, each agency becomes aware of the research supported 
by other agencies across the Government. These meetings provide 
opportunities for collaborative efforts and prevent overlap and 
duplication.
    Congress is also involved in priority-setting. Through both 
the authorizing and appropriations processes, scarce resources 
are allocated with attention to inputs from the National 
Academies, the private sector, as well as interested 
individuals and professional groups. While this system may 
appear to be complex, the proof of its effectiveness lies in 
the outcomes.
    Of the 409 recipients of science Nobel Prizes throughout 
the world since NSF first awarded research grants in 1952, over 
40 percent were researchers who received NSF funding at some 
point in their careers. NSF-funded results permeate our 
society. From Doppler radar to MRI scans, from the Internet to 
nanotechnology, from Google to barcodes, and from computer-
aided design systems to tissue engineering, NSF investments 
have had a profound effect on our quality of life and on 
American competitiveness. Just these examples have added 
hundreds of billions of dollars to the U.S. economy over the 
past 15 years.
    I would like to point out four other recently funded, less 
well known developments with equal promise, some of which 
illustrate the accelerating convergence between the physical 
and health sciences.
    The world's first ultrafast, ultra-accurate laser scalpel 
was developed by physicists and ophthalmologists at NSF's 
Center for Ultrafast Optical Science. Called Interlase, it 
replaces the old LASIK system that required a blade.
    An NSF-funded researcher has developed specially coated 
nanotubes that can be painlessly implanted under the skin. They 
fluoresce in direct proportion to glucose levels in the blood, 
potentially eliminating the need for glucose testing using 
needles.
    Both an artificial retina to assist the blind to see and a 
new ultrasensitive artificial cochlea to assist the hearing-
impaired to hear were developed with NSF support. Madam Chair, 
I hope these brief examples of what basic research can do to 
help U.S. competitiveness are compelling.
    The world-class scientists, technologists, engineers, and 
mathematicians trained through NSF-sponsored research transfer 
new scientific and engineering concepts from universities 
directly to the entrepreneurial sector as they enter the 
workforce. This may be basic research's most profound and 
lasting impact. This capability is a strong suit in U.S. 
competitiveness and one of NSF's greatest contributions to the 
Nation's innovation system.
    Another significant contribution to our Nation's innovation 
system comes from NSF's coupling with industry and the private 
sector. NSF's Engineering Research Centers and Science and 
Technology Centers directly invite private-sector partners to 
engage in and sponsor related cutting-edge research that can 
lead to high-leverage innovations.
    Furthermore, NSF couples investment in our Small Business 
Innovation Research and Small Business Technology Transfer 
programs with high impact emerging technologies such as 
nanotechnology, information technology, and biotechnology.
    Madam Chair and members of the Committee, I have only 
touched upon the variety and richness of the NSF portfolio. I 
look forward to working with you in the months ahead, and would 
be happy to respond to any questions that you may have.
    Thank you.
    [The prepared statement of Dr. Bement follows:]

       Prepared Statement of Dr. Arden L. Bement, Jr., Director, 
                      National Science Foundation

    Chairwoman Hutchison, Ranking Member Nelson, and members of the 
Subcommittee, thank you for this opportunity to testify on the National 
Science Foundation's research and education priorities. For over fifty 
years, NSF has been charged with being a strong steward of the Nation's 
scientific discovery and innovation process that has been crucial to 
increasing America's economic strength, global competitiveness, 
national security, and overall quality of life.
    For many years, the United States economy has depended heavily on 
investments in research and development--and with good reason. 
America's sustained economic prosperity is based on technological 
innovation made possible, in large part, by fundamental science and 
engineering research.
    Innovation and technology are the engines of the American economy, 
and advances in science and engineering provide the fuel. This 
underscores the larger rationale for the President's American 
Competitiveness Initiative (ACI)--in which NSF will play a significant 
role. The ACI encompasses all of NSF's investments in research and 
education.
    In short, the NSF mission is to look toward the frontier--to 
identify the most innovative and promising new research and education 
projects. NSF specifically targets its investments in fundamental 
research at the frontiers of science and engineering. Here, advances 
push the boundaries of innovation, progress, and productivity.
    We identify such frontiers by sticking to our proven, ``bottom-up'' 
philosophy. The best ideas come directly from the scientific and 
engineering community. We support workshops, conferences, and 
symposiums to tap the extraordinary talent of the community in plotting 
innovative strategies for research and education directions for the 
future.
    Each year, we also see over 40,000 of the best and brightest 
ideas--which come to us in grant proposals. We engage over 50,000 
scientists, engineers and educators in the competitive, merit review of 
these proposals. All NSF proposals are evaluated through use of two 
National Science Board approved merit review criteria. In some 
instances, however, NSF will employ additional criteria as required to 
highlight the specific objectives of certain programs and activities. 
For example, proposals for large facility projects also might be 
subject to special review criteria outlined in the program 
solicitation.
    Through these processes, which require direct interactions with the 
scientific and engineering enterprise at large, NSF has an 
extraordinary impact on scientific and engineering knowledge and 
capacity--despite the agency's small size. While NSF represents only 
four percent of the total Federal budget for research and development, 
it accounts for fifty percent of non-life science basic research at 
academic institutions. We are the second largest funding source for R&D 
at colleges and universities behind only the NIH, and provide the 
majority of Federal support for basic research at colleges and 
universities in the social sciences, environmental sciences, non-
medical biology, mathematics, and computer sciences.
    Moreover, NSF is the only Federal agency that supports all fields 
of science and engineering research and the educational programs that 
sustain them across generations. We are among the top three Federal 
funding agencies for nearly every science and engineering discipline, 
and the third-largest Federal sponsor of physical sciences research. 
Specifically for physical sciences and engineering, NSF funds more than 
40 percent of all federally-supported academic basic research. These 
research efforts reach over 2,000 institutions across the Nation, and 
they involve roughly 200,000 researchers, teachers, and students.
    We look forward to providing an even greater reach as part of the 
ACI. As you no doubt know, the President's request for NSF for 2007 is 
$6.02 billion, or an 8 percent increase over the appropriation enacted 
last year. This year's requested increase represents the first step in 
the Administration's firm commitment to double the NSF budget over the 
next 10 years.
    Before I get into the details of our FY 2007 request, let me first 
expand upon the question of priority setting at the Foundation. 
Although my testimony above mentions some of the mechanisms for 
priority setting for NSF--how they are set both across and within 
accounts and among agency objectives, let me briefly expand upon those 
points, as this is an excellent starting point for gaining a proper 
perspective on NSF, because setting priorities is at the core of what 
we do every day.
    The most important source of information for setting priorities 
comes from the research communities themselves. The research proposals 
that we receive help identify the leading edge of research and areas 
ripe for greater investment. The broader research communities also 
provide continuous input in the form of advice and analyses from myriad 
National Academy reports, analyses by professional societies, and 
national and international workshops and conferences. Our Committees of 
Visitors provide top-to-bottom reviews of existing programs and help 
formalize research priorities within and across disciplines. Ultimately 
the priorities reflected in our budget request are refined through 
consultations with the Deputy Director, the Assistant Directors, the 
National Science Board, and the Office of Science and Technology 
Policy. Finally, they are negotiated with the Office of Management and 
Budget in developing the President's budget request to Congress.
    This year's budget request has four priority areas:

        (1) Advancing the frontier;
        (2) Broadening Participation in the Science and Engineering 
        Enterprise;
        (3) Providing World-Class Facilities and Infrastructure; and
        (4) Bolstering K-12 Education

    The first of these--advancing the frontier--is at the heart of 
everything NSF does. In a science and technology-based world, to divert 
our focus from the frontier is to put our Nation's global preeminence 
in science and engineering at peril.
    Frontier research is NSF's unique task in pursuing the 
Administration's research priorities within the larger Federal research 
and development effort. Over the years, NSF has advanced the frontier 
with support for pioneering research that has spawned new concepts and 
even new disciplines. The NSF budget provides strong support in 
fundamental research for activities coordinated by the National Science 
and Technology Council (NSTC).
    For example, NSF is the lead Federal agency supporting NSTC's 
Networking and Information Technology Research and Development (NITRD) 
program. The 2007 budget includes investments of $904 million in 
NITRD--an increase of $93 million.
    A highlight of the Foundation's contribution to NITRD is a $35 
million investment--an increase of $10 million--in Cyber Trust. Cyber 
Trust supports cutting-edge research to ensure that computers and 
networks that underlie national infrastructures, as well as in homes 
and offices, can be relied on to work even in the face of cyber 
attacks. It's part of a larger effort in cybersecurity research, which 
totals $97 million.
    NSF is also the lead in the multi-agency National Nanotechnology 
Initiative (NNI). NSF's 2007 investment in NNI is $373 million, an 
increase of $29 million. Of that total, $65 million will fund Nanoscale 
interdisciplinary research teams (NIRTs). These awards encourage team 
approaches to address nanoscale research and education themes, where a 
collaborative blend of expertise is needed to make significant 
contributions.
    NSF will invest $205 million--an increase of $8 million--in the 
interagency Climate Change Science Program. NSF supports a broad 
portfolio of research activities that provides a comprehensive 
scientific foundation for understanding climate and climate 
variability. Climate has a pervasive effect on the U.S. through its 
impact on natural resources, the economy, and the environment, so this 
is work of great significance to the Nation.
    NSF investments in basic research in Homeland Security also 
increase by $42 million to $384 million. An important new effort will 
support a program of fundamental research on novel technologies for 
sensors and sensor systems to improve the detection of explosives, with 
a particular emphasis on Improvised Explosive Devices (IEDs).
    Fundamental research can play a vital role in helping to stem this 
threat, and at the same time, advance the entire field of sensor 
research. A focal point of this $20 million dollar activity will be 
improving the sensitivity and fine resolution of sensors to recognize 
threats earlier than current technologies.
    The International Polar Year (IPY) in 2007 to 2008 will mark the 
50th anniversary of the International Geophysical Year. That was a year 
in which unparalleled exploration of Earth and space led to discoveries 
in many fields of science--and we hope to emulate that success. The 
U.S. vision for IPY, articulated by the National Academies, \1\ urges 
the U.S. scientific community and agencies to participate as 
international leaders.
---------------------------------------------------------------------------
    \1\ A Vision for the International Polar Year 2007-2008; National 
Academies Press.
---------------------------------------------------------------------------
    The Administration has asked NSF to lead U.S. IPY activities. In 
2007, we will invest $62 million to address major challenges in polar 
research. Key research programs include: Observing Environmental Change 
in the Arctic; Studying Ice Sheet Dynamics and Stability; and Life in 
the Cold and Dark.
    Recent advances in elementary particle physics strongly suggest 
that we are on the verge of a revolution in our understanding of the 
nature of matter, energy, space, and time. NSF will expand its 
substantial investment in elementary particle physics by $15 million. 
The opportunities for discovery today are greater than at any point in 
the last half-century, particularly for the study of dark matter, dark 
energy, and the physics of the universe.
    A new research effort to address policy-relevant Science Metrics is 
funded initially at $6.8 million, through the Social, Behavioral and 
Economic Sciences Directorate. The goal is to develop the data, tools, 
and knowledge needed to establish the foundations for an evidence-based 
science policy. NSF intends to pursue this in close cooperation with 
other agencies.
    To fulfill our ACI obligations, NSF will invest to: (1) generate 
fundamental discoveries that produce valuable and marketable 
technologies; (2) provide world-class facilities and infrastructure 
that will transform research and enable discovery; and (3) help prepare 
the Nation's scientific, technological, engineering, and mathematics 
(STEM) workforce for the 21st Century while improving the quality of 
math and science education in America's schools.
    In pursuit of these goals, NSF will continue to make major 
contributions to America's innovation systems by advancing new 
scientific and engineering concepts. The President's FY 2007 budget for 
NSF will increase funding for research and related activities by 7.7 
percent to $4.7 billion.
    Each of our research directorates would receive increases between 5 
and 9 percent after several years of flat or declining funding, 
enabling them to increase average award sizes, numbers of research 
grants, and success rates for research grant applications. The increase 
will also enable the directorates to support as many as 500 more 
research grants and provide opportunities for approximately 6,400 
additional scientists, students, post-doctoral fellows and technicians 
to contribute to the innovation enterprise. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    In our efforts to advance the frontier, we also aim to enhance 
development of the Nation's talent pool by integrating research and 
education. This longstanding NSF practice facilitates the direct 
transfer of new concepts to the private sector as graduate students 
involved in discovery enter the workforce.
    It means, however, providing students with significant research 
experiences throughout their schooling. The world-class scientists, 
technologists, engineers, and mathematicians trained in this way can 
transfer new scientific and engineering concepts from universities 
directly to the entrepreneurial sector as they enter the workforce. 
This capability is a strong suit in U.S. competitiveness, and one of 
NSF's greatest contributions to the Nation's innovation system.
    As a priority within our overarching educational mandate, NSF will 
continue to emphasize programs aimed at tapping the potential of those 
underrepresented in the science and engineering workforce--especially 
minorities, women, and persons with disabilities. Support for our 
Broadening Participation priority will total over $640 million in 2007.
    Three highly successful programs form the core of this investment: 
the Louis Stokes Alliances for Minority Participation, the Alliances 
for Graduate Education and the Professoriate, and the Centers of 
Research Excellence in Science and Technology. These programs increase 
by $16.2 million--or 24 percent.
    Broadening participation also applies to institutions. In 2007, we 
will increase efforts to ensure that the U.S. enjoys a strong 
capability in science and engineering across all regions of the 
country. NSF will invest $100 million in EPSCoR, the Experimental 
Program to Stimulate Competitive Research.
    Providing World-Class Facilities and Infrastructure is our third 
priority for 2007. NSF has a long-established role in providing state-
of-the-art infrastructure to meet major research challenges. Our 
strategy is to invest in tools that promise significant advances in a 
field of research and to make them widely available to a broad cross-
section of investigators.
    Total funding in the Major Research Equipment and Facilities 
Construction (MRFEC) account is $240.45 million. This investment funds 
five on-going projects and two new starts.
    Two new projects are the feature attractions of our major equipment 
investment in 2007: the Alaska Region Research Vessel (ARRV) and the 
Ocean Observatories Initiative (OOI). Both projects will help to 
fulfill the Administration's 2004 U.S. Ocean Action Plan, developed in 
response to the U.S. Commission on Ocean Policy.
    ARRV is a ship that will dramatically improve access to Arctic 
waters. With an operating year as long as 300 days, this ship could 
accommodate some five hundred researchers and students annually. A 
variety of complex regional and global ecosystem and climate studies 
require a technologically advanced oceanographic platform to conduct 
field research at the ice edge as well as in ice up to three feet 
thick.
    OOI is an integrated observatory network, distributed among coastal 
and deep-sea sites that will help advance our understanding of 
oceanographic and geological features and processes. With these 
fundamentally new tools for local, regional and global ocean science, 
researchers and students will now have continuous, interactive access 
to the ocean.
    As our facilities increase in sophistication and capability, so 
does the amount of data they produce. The sheer volume of information 
is overwhelming our current computational capacity.
    Cyberinfrastructure is likely to be a key factor in addressing this 
problem--and also in establishing and continuing global research 
excellence for many years to come. That makes it a significant NSF 
priority. In 2007, funding for cyberinfrastructure research and 
development will reach $597 million--an increase of $77 million, or 15 
percent.
    NSF will invest $50 million to begin the acquisition of a 
leadership-class high performance computing system. This will be our 
first step on the road toward computation and data processing for 
petascale-level science and engineering. It will be a major milestone 
in NSF's multi-year plan to provide and support a world-class computing 
environment that will make the most powerful high performance computing 
assets broadly available to the science and engineering community.
    I come to the last, but not least, of NSF's four priorities for 
2007: Bolstering K-12 Education. Today's youngsters face a world of 
increasing global competition. We depend on the excellence of U.S. 
schools and universities to provide them with the wherewithal to meet 
this challenge and to make their own contributions to America's future.
    We clearly need to do more to build strong research foundations and 
foster innovation in K-12 science and mathematics education.
    In line with the Administration's focus on this vital national 
priority, NSF will invest $104 million in a new effort named Discovery 
Research K-12 that aims to strengthen K-12 science, technology, 
engineering, and mathematics education. We will refocus our efforts on 
a vital cluster of research in three well-defined grand challenges: (1) 
developing effective science and mathematics assessments for K-12; (2) 
improving science teaching and learning in the elementary grades; and 
(3) introducing cutting-edge discoveries into K-12 classrooms.
    We will also increase funding for the Graduate Teaching Fellowships 
in K-12 Education--better known as GK-12--by nearly 10 percent to $56 
million, supporting an estimated 1,000 graduate fellows. By pairing 
graduate students and K-12 teachers in the classroom, this program has 
been particularly successful in encouraging effective partnerships 
between institutions of higher education and local school districts.
    Today, I have only been able to scratch the surface of the FY 2007 
priorities. With the first installment of the ten-year commitment to 
double NSF's budget, we will be able to capitalize on the many areas of 
emerging promise already on the horizon.
    That means generating quality programs year, after year, after 
year--and continuing to lead the Federal momentum toward more robust 
business practices as we put tax dollars to work for the Nation. NSF is 
one of three agencies recognized as models of excellence in Grants 
Management, and we will continue that tradition.
    The President's commitment to doubling the NSF budget will allow 
NSF to concentrate its vision on the frontier and on the talent needed 
to keep us there. For the foreseeable future, the scientific and 
engineering community at large must work in a larger global context 
which includes an increasing international competition, a deepening 
globalization, and an escalating demand to meet long-standing social 
needs.
    Our priorities and programs at NSF have been shaped by our 
country's grassroots experts through decades of peer-reviewed, merit-
based research. Our 50 years of basic research investments--in 
discovery, learning, and innovation--have a longstanding and proven 
track record of boosting the Nation's economic vitality and competitive 
strength.
    Madam Chair, I hope that this brief overview of NSF's priorities 
conveys to you NSF's commitment to advance science and technology in 
the national interest. I am very appreciative of the Subcommittee's 
long-standing bipartisan support for NSF, and I would be happy to 
respond to any questions that you have.

    Senator Hutchison. Thank you very much.
    Dr. Washington?

   STATEMENT OF DR. WARREN M. WASHINGTON, CHAIRMAN, NATIONAL 
                         SCIENCE BOARD

    Dr. Washington. Thank you, Chair Hutchison, Senators Nelson 
and Stevens, and other Members of the Subcommittee. I 
appreciate the opportunity to testify before you.
    I am Warren Washington, Senior Scientist at the National 
Center for Atmospheric Research in Boulder, Colorado. In my 
testimony, I'll be speaking as the Chairman of the National 
Science Board, and I have the pleasure of serving for 12 years 
on the Board, and 4 as its Chair. I and seven other members 
will retire May 10. We are anxious to end our term on a high 
note, hopefully with an increased budget for NSF.
    The Congress established our National Science Board in 
1950, and gave it dual responsibilities. The first is to 
oversee the activities and establish policies for the National 
Science Foundation, and the second is to serve as an 
independent national science policy advisory body to the 
President and Congress on policy issues related to science, 
engineering, and education.
    The Board greatly appreciates the Congressional support for 
the Board and the Foundation and its programs and activities. 
The Board and the Foundation have enjoyed the bipartisan 
legislation that has been introduced by both Houses of Congress 
to help provide tools to ensure the American science and 
technology enterprise remains the envy of the world.
    I would like to mention the recent decision to establish a 
National Science Board Commission on Education for the 21st 
Century in Science, Technology, Engineering, and Mathematics 
(STEM) to highlight STEM education in the U.S. The commission 
was established after careful consideration of the value it 
would add to the national efforts to improve education in these 
fields. We have held a series of three hearings across the 
country, and heard from a wide range of stakeholders in the 
education system. Congressional Member participation in the 
Board's December hearing on the 21st Century Education in 
Science, Mathematics, and Technology helped to highlight the 
very important issues for U.S. education in these fields.
    The input that we have received at these hearings and the 
urging of the Members of Congress and independent stakeholders 
has led to the Board action to essentially form this 
commission, whose focus is going to be on actually developing a 
national action plan. And I want to stress ``action plan.'' It 
is not going to be another study. We're going to essentially 
make use of the previous studies to come up with this action 
plan.
    I would like to provide some general comments on the Fiscal 
Year 2007 budget, and update you on some of the Board's 
activities over this year.
    In August 2005 the Board reviewed and approved the NSF 2007 
budget request that was submitted to OMB in September. And we 
generally support the President's budget request. I should also 
like to mention that we're greatly encouraged by the overall 
increase in the Fiscal Year 2007 request. As you know, given 
the very tough budget situation that the Government is under, 
we understand the limitations on discretionary spending. In 
February of last year, the Senate requested that the Board come 
up with a new bold vision for NSF. And we actually produced 
this document here--we have completed that action on time. The 
Board has published this document, and in the process we have 
gotten a great deal of input before it was actually finalized.
    The vision takes into account the sense of our Nation, our 
knowledge of the trajectory of the global science, engineering 
research, and our confidence in a promising future. We provided 
strategic priorities, near-term goals, and enabling strategies 
for achieving this vision. The President's 2007 NSF budget is a 
significant step toward achieving that new vision.
    We are very appreciative of the 7.9 percent requested in 
the NSF's budget, which raises the budget to $6.2 billion. This 
is a very significant increase for the NSF for programs and a 
very wise use of our Nation's limited Federal budget.
    However, it is incumbent on the Board, in our capacity as 
independent advisory body for the President and Congress, to 
note that this still represents a significant gap compared with 
the Congressionally authorized 2007 budget of approximately $7 
billion. We still have a long way to go before we get to the 
authorized doubling level.
    The President's American Competitiveness Initiative again 
calls for the doubling of NSF's budget, but over the next 10 
years. And we certainly support that.
    We respectfully suggest that implementing these admirable 
authorizations and initiatives has never been more urgent than 
now. It is also important that the NSF portfolio of investments 
be diverse and also balanced.
    There are two NSF directorates that we do have concern 
about, in terms of the balance of the portfolios, and those are 
the Education and Human Resources, and the Biological Sciences 
directorates. Should the Congress determine that additional 
funds beyond the Administration's request can be made available 
in FY07 the National Science Board would essentially recommend 
support for a strong and growing NSF budget in these two areas.
    I want to point out a couple of other things. First of all, 
NSF's Math and Science Partnerships Program is an essential 
long-term component of our coordinated effort to promote 
excellence in science, mathematics, and engineering. The Board 
still strongly supports this program at NSF.
    With regard to EPSCoR, this is very high priority for the 
Board. We feel that this is a way we can strengthen the 
underserved and the underutilized parts of our community.
    I would like to end up by emphasizing the Board's general 
support of the integrated portfolio of investments in science 
and engineering research and education that is represented in 
the 2007 budget proposal. It thoughtfully blends support for 
the core disciplines with encouragement for interdisciplinary 
initiatives. It also brings together diverse and complementary 
backgrounds, and provides for infrastructure and education, and 
strengthens NSF's management of the enterprise.
    I will be happy to answer any questions you have. Thank you 
very much.
    [The prepared statement of Dr. Washington follows:]

       Prepared Statement of Dr. Warren M. Washington, Chairman, 
                         National Science Board

    Chairman Hutchison, Senator Nelson, and Members of the 
Subcommittee, I appreciate the opportunity to testify before you. I am 
Warren Washington, Senior Scientist and Section Head of the Climate 
Change Research Section at the National Center for Atmospheric 
Research. My testimony today is my last with you in my capacity as the 
Chairman of the National Science Board (the Board). I, along with seven 
of my fellow Board Members, retire from the Board on May 10. It has 
been my great pleasure to serve on the Board for 12 years, the last 4 
as Chairman.
    On behalf of the Board and the widespread and diverse research and 
education communities that we all serve, I thank the Members of this 
Subcommittee for your long-term commitment to a broad portfolio of 
investments in science, technology, engineering, and mathematics (STEM) 
research and education. While it is critical that our Nation 
significantly increase our support for this portfolio, it is also 
important that these investments be diverse and balanced.
    The Congress established the National Science Board in 1950 and 
gave it dual responsibilities:

  <bullet> Oversee the activities of, and establish the policies for, 
        the National Science Foundation (the Foundation, NSF); and

  <bullet> Serve as an independent national science policy advisory 
        body to the President and the Congress on policy issues related 
        to science and engineering (S&E) research and education.

    The Board greatly appreciates Congressional support of the Board, 
the Foundation, and their programs and activities. Bipartisan 
legislation being introduced in both houses of Congress will help to 
provide additional tools to ensure the American science and technology 
(S&T) enterprise remains the envy of the world.
    Now, I would like to provide some general comments regarding the 
NSF FY 2007 budget request, then update you on National Science Board 
activities over the last year and some of our priorities for the coming 
year.

FY 2007 NSF Budget Request
    In August 2005, the National Science Board reviewed and approved an 
NSF FY 2007 budget request that was submitted to the Office of 
Management and Budget (OMB) in September 2005. The Board generally 
supports the President's budget request, and we are greatly encouraged 
by the overall level of increase in the total NSF FY 2007 budget 
request. Given the overall cut to non-defense domestic discretionary 
spending, the Board respects and appreciates that the President's 
budget request recognizes the importance of returning NSF to 
significant positive growth. We are cognizant of the current Federal 
fiscal constraints that our Nation faces and that there are many worthy 
competing interests for limited resources.
    Nearly a year ago, Members of Congress requested that the Board, in 
its role as the policy making and oversight body of the NSF, develop a 
bold new vision for NSF. The Board was also requested to factor Federal 
fiscal realities into its vision for the future of NSF. The National 
Science Board 2020 Vision for the National Science Foundation  (NSB 05-
142, www.nsf.gov/nsb/documents/reports.htm ) was delivered to Congress, 
as requested, four months ago. This document provides a vision 
statement for NSF that is informed by a sense of our Nation, our 
knowledge of the trajectory of global science and engineering research, 
and our confidence in a promising future. We have also provided 
Strategic Priorities, Near-Term Goals, and Enabling Strategies for 
achieving this vision.
    The Board envisions a prosperous America that is powered by 
innovations flowing from the latest transformative scientific ideas 
with a workforce among the most scientifically and technically 
competent on the planet. We see an America in which every student 
graduates from high school with a sufficient grasp of the fundamental 
concepts in S&T to live a full and productive life in an increasingly 
technological world and whose research and higher education 
enterprises--among the most creative and fruitful in the world--bring 
together the best minds for inquiry, discovery, and teaching. The Board 
also envisions an America whose knowledge, skills, and values are 
respected and influential in setting the aspirations and policies of 
the global research and technology enterprise.
    The National Science Board's 2020 Vision for NSF establishes broad 
priorities for the National Science Foundation to:

  <bullet> Drive the cutting edge of fundamental and transformative 
        research;

  <bullet> Tap the talents of all our citizens, particularly those 
        belonging to groups that are underrepresented in the science 
        and research enterprise, and continue to attract foreign 
        students and scientists to the U.S.;

  <bullet> Develop and test new approaches to teaching science to 
        elementary and secondary school students and catalyze 
        partnerships among schools, museums, aquariums, and 
        universities to put these techniques into effective practice;

  <bullet> Provide the bright minds in our research institutions with 
        the tools and instruments needed to probe the frontiers of 
        knowledge and develop ideas that can transform our 
        understanding of the world; and

  <bullet> Maintain the financial and talent resources to be an 
        effective agent for excellence in the critical national 
        enterprises of learning, discovery, and innovation.

    The President's FY 2007 NSF budget request is a significant step 
towards achieving the Board's 2020 Vision for NSF. The Board fully 
supports the FY 2007 NSF budget focus on the four funding priorities 
that address current national challenges as well as strengthening the 
core portfolios of NSF's research investment. We also recognize that a 
budget request of $6.2 billion, representing a 7.9 percent increase 
over NSF's FY 2006 budget, is a significant investment in NSF.
    Nevertheless, it is incumbent on the Board, in our role as an 
independent advisory body to both the President and Congress, to note 
that this still represents a significant gap between the existing 
Congressionally authorized FY 2007 NSF budget of approximately $10 
billion that was included as part of the NSF Act of 2002, which sought 
to double the NSF budget in 5 years. The President's American 
Competitiveness Initiative again calls for a doubling of the NSF budget 
over a 10-year period. The Board welcomed the 2002 Congressional 
authorization to double NSF's budget, the President's new call for a 
doubling of NSF's budget and all past efforts to double NSF's budget. 
However, we would respectfully suggest that the time to implement these 
admirable authorizations and initiatives has never been more urgent 
than now.
    Members of this Subcommittee are familiar with the recent National 
Academy of Sciences study, headed by Norm Augustine, that described the 
unique and long-term value of programs in science and engineering 
research and education, like those at NSF, to ensuring the future 
economic health of our Nation, maintaining U.S. preeminence in 
discovery and innovation, and providing valuable contributions to 
homeland security efforts. A review of the National Science Board's 
just released Science and Engineering Indicators 2006 (NSB 06-01, 
www.nsf.gov/nsb/ ) report should provide ample evidence of troubling 
trends that the Board, the National Academies and others have been 
highlighting regarding our Nation's future ability to remain preeminent 
in the global enterprise of discovery and innovation.
    A critical mass of support, at least in principle, seems to have 
been attained with support from the President, both parties of Congress 
and the Nation regarding the need to significantly increase our 
Nation's broad portfolio of investments in science, engineering, 
mathematics, and technology research and education. It is also 
important, however, that this portfolio be diverse and balanced. Two 
NSF directorates, in particular, seem out of balance with the rest of 
the NSF budget over the last 2 years--Education and Human Resources 
(EHR) and Biological Sciences (BIO). Should this Congress determine 
that additional funds, beyond the Administration's request, can be made 
available to NSF in FY 2007, the National Science Board would recommend 
support for a strong and growing role for the NSF in the Nation's 
investment in S&E education, and addressing basic biological research.
    Nearly a quarter century ago, the National Science Board's 
Commission on Pre-college Education in Mathematics, Science and 
Technology assessed the state of U.S. pre-college education in the 
subject fields and found it wanting. In the intervening years, we have 
failed to raise the achievement of U.S. students commensurate with the 
goal articulated by that Commission--that U.S. pre-college achievement 
should be ``best in the world by 1995''--and many other countries have 
surpassed us. Not only are they not first, but by the time they reach 
their senior year, even the most advanced U.S. students perform at or 
near the bottom on international assessments. There is now an even more 
pressing need to build a new foundation. The Science and Engineering 
Indicators 2006 report clearly describes the extent of the dilemma; the 
time to act is now.
    In 1983 the U.S. Department of Education's National Commission on 
Excellence in Education published the report, A Nation At Risk. This 
document stated: ``By the year 2000, U.S. students will be the first in 
the world in mathematics and science achievement,'' expressing alarm on 
the ``rising tide of mediocrity [in education] that threatens our very 
future as a Nation and a people.'' Despite these two reports--A Nation 
At Risk sounding the alarm and the NSB Commission report recommending 
solutions--and many others since then, we continue to slip further 
behind. The converging trends and stresses within our Nation's K-12 
science and system are clearly documented in Science and Engineering 
Indicators 2006.
    As the Board has stated in our just released policy report 
entitled, America's Pressing Challenge--Building a Stronger Foundation 
(NSB 06-02, www.nsf.gov/nsb/ ), if the U.S. is to maintain its economic 
leadership and compete in the new global economy, the Nation must 
prepare today's K-12 students better to be tomorrow's productive 
workers and citizens. Changing workforce requirements mean that new 
workers will need ever more sophisticated skills in STEM disciplines. 
This emerging workforce, consisting of degreed and highly skilled 
technical workers, will need to begin developing their mathematical and 
science skills early in their educational career. In addition, the 
rapid advances in technology in all fields mean that even those 
students who do not pursue professional occupations in technological 
fields will also require solid foundations in science and math in order 
to be productive and capable members of our Nation's society. We simply 
cannot wait until our students reach 18 years old to begin producing 
the intellectual capital necessary to ensure this future workforce; the 
time is now to get serious about this problem and better sharpen our 
efforts at all grade levels, in order to dramatically accelerate 
progress, lest we find ourselves, as a Nation, unable to sustain our 
high technology based quality of life.
    Education is a core mission of NSF, which not only promotes 
research, but also shares in the responsibility for promoting quality 
math and science education as intertwining objectives at all levels of 
education across the United States. NSF's highly competitive peer-
review process is second to none for openly and objectively 
identifying, reviewing, selecting, funding and providing stewardship 
for the very best STEM proposals and programs in research and 
education.
    The NSF Mathematics and Science Partnerships (MSPs) are important 
tools for addressing a critical--but currently very weak--link between 
pre-college and higher education. The NSF MSP Program provides for the 
collaboration between pre-college and college to promote excellence in 
teaching and learning, therefore facilitating the transitions for 
students from kindergarten through the baccalaureate in STEM 
disciplines. The added benefit for our Nation is those students who do 
not choose STEM careers become the informed and scientifically-literate 
voting citizens we need for the 21st Century.
    NSF has the mandate, depth of experience, and well-established 
relationships to build the partnerships for excellence in STEM 
education. The Board, therefore, continues to stand by our 2004 formal 
policy statement (NSB 04-02, www.nsf.gov/nsb/documents/testimony.htm) 
strongly urging that continued, full funding of the MSP Program at NSF 
be sustained over the long term as an essential component of a 
coordinated Federal effort to promote national excellence in science, 
mathematics and engineering. We also note with great concern that the 
FY 2007 NSF Budget provides for only a 2.5 percent increase from FY 
2006 for the Education and Human Resources Directorate--still leaving 
this important component of our Nation's STEM education initiative over 
3 percent below its FY 2005 level.
    Another example of an area of NSF's diverse portfolio that would 
warrant attention should the Congress find additional funds beyond the 
President's request, is the Biological Sciences Directorate. This 
directorate essentially had a zero budget increase from FY 2005 to FY 
2006, and has the smallest FY 2007 percent increase of any of the NSF 
Research and Related Activities Directorates.
    In general, the Biological Sciences budget of NSF has been small in 
recent decades, relative to the fact that some of the most spectacular 
advances in science over the last 50 years have been in this field. The 
emergence of biology at the forefront of scientific advances began with 
the discovery of the structure of DNA by Watson and Crick in 1953 and 
has accelerated ever since. Among the many landmark discoveries was the 
validation of the universal genetic code in the late 1960s. The work on 
determining the genetic code was performed in England using a bacterial 
virus, a ``bacteriophage.'' These and many other biology-focused 
discoveries have been recognized by numerous Nobel prizes.
    One major factor that may have inadvertently contributed to a 
perceived lack of need to significantly increase the NSF Biology budget 
may have been the dramatic budget increases over the last 10 years for 
the National Institutes of Health (NIH). However, NIH and NSF have 
different missions and foci in regards to supporting basic research in 
biological sciences. The NSF physical sciences are well deserving of 
significant budget increases, but so are the other facets of NSF's 
diverse portfolio. The spectacular advances in structural biology have 
depended largely on the development of innovative new technology, some 
of which has been funded by NSF. Biology today is as basic a science 
for exploring our world as physics, chemistry, and mathematics have 
always been. Biologists are by far the largest community of scientists 
benefiting from synchrotron radiation sources; structural biologists 
have long been one of the major driving forces for better and bigger 
computing facilities; and the daily visual imaging technology used in 
the analyses of proteins or whole cells is on par with needs for this 
technology in physical sciences. It is also widely recognized that 
advances in biological sciences are instrumental in fostering 
applications that often lead to commercial innovation. Yet funding of 
biology has decreased as a proportion of the NSF budget in the last 8 
years.
    Notwithstanding the Board's concern regarding NSF's EHR and BIO 
budgets, I would emphasize that the NSB supports the integrated 
portfolio of investments in S&E research and education represented in 
the NSF FY 2007 budget proposal. It thoughtfully blends support for the 
core disciplines with encouragement for interdisciplinary initiatives, 
brings together people from diverse and complementary backgrounds, 
provides infrastructure for research and STEM education, and 
strengthens the NSF's management of the enterprise.
    The Board fully supports the proposed FY 2007 funding for the Major 
Research Equipment and Facilities Construction (MREFC) account that 
permits the initiation of three new MREFC projects. Members of the 
Senate are aware of the exciting opportunities at the frontiers of 
knowledge that we are unable to pursue without the cutting edge 
facilities that are funded under this account. The Board reiterates our 
support and priority order for these three ``new start'' MREFC projects 
with highest priority for the Alaska Regional Research Vessel (ARRV), 
followed by National Ecological Observation Network (NEON) and the 
Ocean Observations Initiative (OOI).
    The process and criteria for establishing priorities for Major 
Research Equipment and Facilities Construction (MREFC) is described in 
A Joint National Science Board--National Science Foundation Management 
Report: Setting Priorities for Large Research and Facilities Projects 
Supported by the National Science Foundation (NSB-05-77, September 
2005) http://www.nsf.gov/pubs/2005/nsb0577/index.jsp. Briefly, MREFC 
projects under consideration must undergo a multi-phase internal and 
external review and approval process. This includes a review by the 
internal NSF MREFC Panel, which makes recommendations to the NSF 
Director with attention to criteria such as scientific merit, 
importance, readiness, and cost-benefit. These criteria have been 
modified to align with the criteria recommended by the National 
Academies and approved by the Board.
    On at least an annual basis, an overarching cross-discipline 
context for assessing the value of a proposed facility in comparison to 
other investments is presented by NSF to the Board. The Facility Plan 
combines in one document a report on major facilities under 
construction and in various stages of development, together with an 
extensive discussion of the science objectives and opportunities at the 
frontiers of science and engineering that provide the context and 
compelling need for major facilities. The Board believes that the NSF 
Facility Plan, updated regularly and made public, is a valuable 
planning tool within NSF and the Executive Branch, providing a 
comprehensive exposition of needs and plans to inform decisions in 
Congress, and serving as an important vehicle for communicating with 
our research communities.
    The Director selects MREFC candidates to send to the National 
Science Board for consideration, which then approves, or not, projects 
for inclusion in future budget requests. On at least an annual basis, 
the Board reviews all of the Board-approved projects that have not yet 
received MREFC appropriations to determine if there should be any 
changes to the priority order of the projects. The Director, in keeping 
with the Board's prioritization, then develops the annual NSF budget 
request for the Board's review and approval prior to the Director 
submitting the budget to OMB. In this year's budget, the increased 
funding in the MREFC account for three new starts, already approved by 
the Board to seek funding, is in accord with our well supported finding 
of an urgent need for increased Federal and NSF investment in 
infrastructure in our 2003 report, Science and Engineering 
Infrastructure for the 21st Century: The Role of the National Science 
Foundation (NSB 02-190) http://www.nsf.gov/nsb/documents/2002/nsb02190 
/msb02109.pdf, and our approval of these particular projects as ready 
to seek funding, in priority order, under the MREFC account.
    The President's budget request for NSF also continues to foster S&T 
that enhances our homeland security. NSF activities in this area 
include Critical Infrastructure Protection, Research to Combat 
Bioterrorism, Cybercorps Scholarships for Service, Counterterrorism, 
and Physical/Information Technology Security. By enabling future 
discovery and innovation, NSF supports our Nation's long-term 
prosperity and security. The requested funding for Homeland Security 
related projects is $384.21 million, representing a 12.4 percent 
increase over FY 2006. Nearly half of the requested increase will 
support a new NSF-wide activity that seeks to advance fundamental 
knowledge in new technologies for sensors and sensor networks, and in 
the use of sensor data in control and decision-making across a broad 
range of applications, particularly those that bear on the prediction 
and detection of explosive materials and related threats.

Overview of NSB Activities During the Last Year
    During the last year, the Board accomplished a great deal, even 
while going through a continuing evolution in terms of its operation. I 
will not attempt to describe all of our accomplishments, but I would 
like to briefly highlight some of these accomplishments.

NSF Oversight and Policy Direction
    A significant example of the Board's effort to provide oversight 
and policy direction to NSF was the completion of a revised process for 
the identification, review, approval and prioritization of large 
facilities projects. Under the revised process, the Board approved six 
major NSF awards totaling over $540 million, and approved the 
termination of an MREFC project.
    The Board also approved a policy statement on Respective Roles of 
NSF Management and the Office of Inspector General in the Settlement of 
Administrative Investigatory Matters, as well as approved Guidance for 
NSF Centers Programs, and carried out a Review of the NSF Merit Review 
System (NSB 05-119, www.nsf.gov/nsb/documents/reports.htm)
    Perhaps most importantly, we approved the National Science Board 
2020 Vision for the National Science Foundation.
Advice to the President and Congress
    In terms of advice to the President and Congress, the Board 
published and disseminated several important reports, including:

  <bullet> Long-Lived Digital Data Collections (NSB 05-40, www.nsf.gov/
        nsb/documents/reports.htm ).

  <bullet> Science and Engineering Indicators 2006 report.

  <bullet> The Board's S&E Indicators ``Companion Piece'' policy report 
        that focuses on STEM education, entitled America's Pressing 
        Challenge--Building a Stronger Foundation.

    Further, the NSB provided testimony to Congressional hearings, and 
responded to other specific questions and inquiries from Congress.

Improved Outreach and Communication by the Board
    The Board also continues to increase and improve our direct 
outreach and communication with OMB, OSTP, Congress, other Federal 
agencies, various interest groups and the external science and 
engineering research and education community.
    For example, the Board held:

  <bullet> three public hearings (with simultaneous Web casts) on 21st 
        Century Education in Science, Mathematics and Technology with 
        Members of Congress testifying in two, on Capitol Hill; in 
        Boulder, Colorado; and Los Angeles, California;

  <bullet> two public workshops on Transformative Research (Arlington, 
        VA and Santa Fe, NM);

  <bullet> three public workshops on Hurricane Science and Engineering 
        (Arlington, VA; Boulder, Colorado; and Pensacola, Florida;

  <bullet> a public workshop on Engineering Workforce Issues and 
        Engineering Education (Massachusetts Institute of Technology);

  <bullet> two public presentations on Capitol Hill on Science and 
        Engineering Indicators 2006 (NSB 06-02) and its Companion 
        Piece, America's Pressing Challenge--Building a Stronger 
        Foundation (NSB 06-02), February 23 to the media and general 
        public and April 6 to the House R&D and STEM Caucuses; a 
        presentation to Colorado to State legislators on Science and 
        Engineering Indicators and the Education Commission hearings 
        for the American Electronics Association, March 23; and two 
        presentations at the National Science Teachers Association 
        (NSTA) in April in Anaheim, California on Indicators and the 
        Companion Piece; and

  <bullet> sponsored informational booths at both the American 
        Association for the Advancement of Science (AAAS) meeting in 
        February in St. Louis, Missouri and NSTA.

    In an effort to facilitate more openness of Board meetings in 
accord with the Sunshine Act, we expanded our practices for:

  <bullet> providing public notice of all our meetings in the Federal 
        Register and on the NSB Web site;

  <bullet> treating teleconferences of committees as ``meetings,'' 
        subject to the requirements of the Government in the Sunshine 
        Act;

  <bullet> providing much more information to the public in a more 
        timely manner regarding meeting discussions and decisions; and

  <bullet> encouraging public comment during the development of Board 
        publications.

    The National Science Board Office (NSBO) is contracting to develop 
monitoring and evaluation tools, to expand outreach, and measure the 
impacts of NSB statements, resolutions and reports; and to redesign the 
NSB website to promote transparency, accessibility, and utility for the 
public. The Board's practice of holding its data gathering workshops 
around the country will be expanded in FY 2006 and 2007 to increase 
opportunities for the public to attend Board activities.
    The Board has also continued its recognition of outstanding 
science, engineering and science education accomplishments through the 
Vannevar Bush Award, Alan T. Waterman Award, and Public Service Awards.

Ongoing and Future Board Activities
    The Board has much to do in 2006 and 2007. Perhaps one of the most 
important actions is to oversee the implementation of the Board's 2020 
Vision for NSF and approval of the new NSF Strategic Plan, which 
articulate the broad priorities for the National Science Foundation. At 
our March 2006 Board meeting we approved the creation of a Board 
Commission on 21st Century Education in Science, Technology, 
Engineering, and Mathematics (NSB 06-03) (attached charge). We expect 
to complete the appointment of members to this Commission by the time 
of our May 9-10 Board meeting.
    Two of our Task Forces, Transformative Research and Hurricane 
Science and Engineering will hold additional workshops and present the 
Board with draft final reports for Board approval. Both involve broad, 
multidisciplinary questions on the broad frontiers of science and 
engineering and across the portfolios of NSF's science, engineering and 
education directorates. Hurricane Science and Engineering in particular 
requires an integrative, multidisciplinary approach across a wide span 
of disciplines, including physical, social, behavioral, economic, 
biological, ecological, information technology and other appropriate 
sciences, as well as engineering (e.g., civil, environmental, 
mechanical), to address deep fundamental science questions regarding 
hurricanes as natural disasters. Fundamental social, behavioral and 
economic sciences play an especially critical role in understanding the 
impacts of such natural disasters, and in other areas of human behavior 
and risk-taking. In this context, it is worth noting that the 2005 
Nobel Prize in Economic Sciences was awarded to American economist 
Thomas C. Schelling and American/Israeli economist Robert J. Aumann for 
enhancing ``understanding of conflict and cooperation through game-
theory analysis.''
    Our Task Force on International Science Partnerships will literally 
be taking the Board around the world in 2006 and 2007, and our ad hoc 
Task Group on Engineering Education is poised, after additional data 
gathering, to present us with recommendations that will impact 
university engineering programs and the future engineering workforce.
    In addition to the Board matters of oversight and policy direction 
to NSF and providing advice to the President and Congress, there will 
also be significant transitions taking place on the Board itself. In a 
few short months, eight Board Members, four of whom have served on the 
Board for 12 years, will leave the Board. The Board will also be 
electing a new Chairman and Vice-Chairman, with committee chairmanships 
open to new appointments by the new Chairman of the Board.

FY 2007 NSB Budget
    The Board's Budget Request for FY 2007 seeks resources to carry out 
its statutory authority and to strengthen the Board's oversight 
responsibilities for the Foundation. Effective communications and 
interactions with our constituencies contribute to the Board's work of 
identifying priority S&T policy issues, and developing policy advice 
and recommendations to the President and Congress. To this end, the 
Board will continue to increase communication and outreach with the 
university, industry and the broader S&E research and education 
community, Congress, Federal S&T agencies, and the public. The Board's 
activities will aim to support global leadership in discovery and 
innovation based on a continually expanding and evolving S&T enterprise 
in this country, and will ensure a principal role for NSF programs in 
providing a critical foundation for S&E research and education.
    Among other activities in FY 2007, the Board expects to complete 
its study of NSF identification, development, review and funding of 
transformative research, and provide new guidance for NSF policies 
regarding such research. It will also provide national policy 
recommendations following completion of the work of its Commission on 
21st Century Education in Science, Technology, Engineering and 
Mathematics. While many of these recommendations will be at a national 
system level, a number will also focus specifically on the role NSF can 
and should play in supporting the development of an adequate and 
diverse S&E workforce for the future. The Board's examination of 
university level engineering education will also be completed and 
recommendations provided in FY 2007. The Board's Task Force on 
Hurricane Science and Engineering will also be producing a final report 
that is expected to outline a specific role for NSF in addressing 
interdisciplinary needs of an integrated national research program. The 
NSB International Task Force expects to complete its examination of the 
role of the Government in international science and engineering in 
response to the changes that have occurred in recent years to the 
global dynamics for S&E research, education, politics, and workforce. 
The Board will continue to review and approve NSF's actions for 
creating major NSF programs and funding large projects. It is also 
expected that the Board will be reviewing a new NSF Strategic Plan and 
guiding its implementation that is expected to address the Board's 2020 
Vision for NSF.
    Essential to the conduct of Board business is a small and 
independent, yet adequate, core of full-time senior policy, clerical 
and operations staff, supplemented by short-term temporary contractual 
support as needed for various Board endeavors. This core of Board 
support is augmented by the Foundation as it continues to provide 
accounting, logistical and other necessary resources in support of the 
NSB and its missions. In addition to the NSBO's essential and 
independent resources and capabilities, external advisory and 
assistance services are especially critical to support production of 
NSB reports and supplement the Board staff's general research and 
administration services to the Board. These external services provide 
the Board and its Office with the flexibility to respond independently, 
accurately and quickly to requests from Congress and the President, and 
to address issues raised by the Board itself.
    By statute, the Board is authorized five professional positions and 
other clerical staff as necessary. In consultation with the Congress, 
the Board has defined these five professional positions as its senior 
S&E policy staff, and the clerical positions as Board staff that 
support Board operations and related activities associated with the 
conduct of its meetings and oversight responsibilities. At my 
direction, the NSB Executive Officer, who reports directly to the Board 
Chair and also serves as the NSBO Director, has identified options for 
broadening the NSBO staff capabilities to better support the broad 
mission of the Board. The NSBO staff provides both the independent 
resources and capabilities for coordinating and implementing S&E policy 
analyses and development, and the operational support that are 
essential for the Board to fulfill its mission.
    The full impact of increasing the number of professional positions 
to the statutory level, along with necessary clerical and support 
staff, is expected to occur in FY 2007, with increased attention to 
addressing new skill requirements. Nevertheless, the results of a 
strategic restructuring of NSBO management and operations over the last 
2 years (since implementation of the changes incumbent in the December 
2002 NSF Re-Authorization Act), has led to more efficient use of 
appropriated resources while retaining the ability to support an active 
Board agenda. More efficient operations, in combination with a 
completion of Board Office equipment upgrades in FY 2006, has 
positioned the Board to propose an FY 2007 budget that represents a 
reduction of $40,000, or -1.0 percent, over the FY 2006 Current Plan. 
However, it is important to note that our proposed FY 2007 budget 
provides the minimum level of support for essential Board activities.

Closing Remarks
    This is a difficult time for Federal S&E research and education 
budgets and the organizations and individuals that rely on Federal 
support. For over 50 years the Federal Government has sustained a 
continual, visionary investment in the U.S. research and education 
enterprise in the expectation that such investment would benefit all 
Americans. That Federal effort has expanded the horizon of scientific 
discovery and engineering achievements far and wide, leading to the 
realization of enormous benefits to the Nation's prosperity and 
security.
    We know what works--we have a very long history of success to draw 
on. In 1946, legislators contemplating the creation of a national 
science foundation were disturbed by the relative weakness of America 
in basic scientific discoveries. This weakness was evidenced by several 
factors, including the scarcity of U.S. researchers awarded Nobel 
Prizes in chemistry, physics, and medicine and a serious deficit of 
trained American scientists. By the 1960s, evidence of the success of 
the Foundation they established was abundant: U.S. researchers were 
regularly honored for their accomplishments in the sciences by many 
authorities, including the Nobel Foundation, and the American education 
enterprise that trained scientists and engineers became the envy of the 
world.
    We know the expanding frontiers of knowledge offer enormous 
opportunities for research and innovation. We also know that the 
education of all our citizens in the fundamentals of math, science and 
engineering must continue to be enhanced if the U.S. is to remain 
eminent in critical S&T disciplines. As other nations ramp up their 
investment in the infrastructure for S&E research and innovation, we 
cannot be complacent. The Federal investment in the Nation's S&T is a 
necessity for the Nation's future prosperity and security. The U.S. 
must sustain its advantages through continued wise, adequate Federal 
support for our S&E enterprise.
    In recognition of fiscal realities, the National Science Board 
pledges that we will guide NSF by setting priorities, to make difficult 
programmatic budget decisions and, as a result, to obtain the best 
return on the taxpayers' investment. However, even in a time of budget 
constraints, we cannot ignore the Nation's growing dependence on 
innovation for economic prosperity and the ever-improving quality of 
life Americans have come to expect. The Board recognizes that competing 
priorities may impose fiscal constraints that limit the Foundation's, 
and so the Nation's, aspirations. In weighing these competing 
priorities, the Nation must realize that the challenges we defer today 
will be faced by our children, and the opportunities we forego today 
will be charged to their future. The Board therefore urges that the 
Congress take the long view in its annual budget decisions on the 
funding of U.S. science and engineering capabilities through the 
National Science Foundation.

NSB/EDCOM-2006-03, March 30, 2006--Charge to the National Science Board 
     Commission on 21st Century Education in Science, Technology, 
                      Engineering and Mathematics

Background
    Over the last two decades, numerous reports and statements from 
eminent bodies representing the broad range of national interests in 
science and technology literacy in U.S. society and skills in the U.S. 
workforce have sounded alarms concerning the condition of pre-K-16 
education in science and technology areas. Nevertheless, our Nation's 
education competitiveness continues to slip further behind the rest of 
the world. A number of spokespersons for the science and engineering 
education communities have urged the National Science Board (the Board) 
to undertake an effort similar to the 1982-1983 Board Commission on 
Pre-college Education in Mathematics, Science, and Technology. 
Congressional Appropriations Committee report language for FY 2006 
stated that they strongly endorse the Board taking steps to ``establish 
a commission to make recommendations for the National Science 
Foundation (NSF) and Federal Government action to achieve measurable 
improvements in the Nation's science education at all levels,'' and 
expects the Board to ``report the commission's findings and 
recommendations to the Committee at the conclusion of the commission's 
work.'' Subsequently, the Board held three public hearings to explore 
the merit of establishing a special Commission on Education for the 
21st Century. By approving this charge, the Board has decided to 
establish such a Commission to develop a national action plan 
addressing issues that have inhibited effective reform of U.S. science, 
technology, engineering, and mathematics (STEM) education.

Statutory Basis under the NSF Act
    Under 42 U.S.C. Sec. 1862(d): ``The Board and Director shall 
recommend and encourage the pursuit of national policies for the 
promotion of . . . education in science and engineering.'' 42 U.S.C. 
Sec. 1863(h) authorizes the National Science Board ``to establish such 
special commissions as it may from time to time deem necessary for the 
purposes of this chapter.'' The Board Commission on 21st Century 
Education in Science, Technology, Engineering and Mathematics (the 
Commission) will conduct its activities according to the Federal 
Advisory Committee Act (FACA) and other authorities, including 
applicable conflict-of-interest laws and regulations.

Objectives
    The Commission will make recommendations to the Nation through the 
Board for a bold new action plan to address the Nation's needs, with 
recommendations for specific mechanisms to implement an effective, 
realistic, affordable, and politically acceptable long-term approach to 
the well-known problems and opportunities of U.S. pre-K-16 STEM 
education. The objective of a national action plan is to effectively 
employ Federal resources cooperatively with those of stakeholders from 
all sectors including but not limited to: Federal, State and local 
government agencies; parents, teachers and students; colleges--
including community colleges; universities, museums and other agents of 
formal and informal education outside the K-16 systems; industry; and 
professional, labor and public interest organizations to encourage and 
sustain reform of the national pre-K-16 STEM education system to 
achieve world class performance by U.S. students, prepare the U.S. 
workforce for 21st century skill needs, and ensure national literacy in 
science and mathematics for all U.S. citizens.
    In developing a national action plan, the Commission will address 
the following issues and identify the specific role of NSF in each:

  <bullet> Improving the quality of pre-K-16 education related to both 
        general and pre-professional training in mathematics, 
        engineering and the sciences, including, but not limited to: 
        the availability of competent teachers; the adequacy and 
        currency of curricula, materials, and facilities; standards and 
        trends in performance, as well as promotion, graduation and 
        higher-education entrance requirements; and comparison with 
        performance and procedures of other countries.

  <bullet> Identifying critical aspects in the entry, selection, 
        education and exploitation of the full range of potential 
        talents, with special attention to transition points during the 
        educational career where loss of student interest is greatest; 
        and recommend means to assure the most effective education for 
        all U.S. students as well as future scientists, engineers and 
        other technical personnel.

  <bullet> Improving mathematics and science programs, curricula, and 
        pedagogy to capitalize on the Nation's investment in 
        educational research and development and appropriate models of 
        exemplary education programs in other countries.

  <bullet> Promulgating a set of principles, options and education 
        strategies that can be employed by all concerned, nationwide, 
        to improve the quality of secondary school mathematics and 
        science education in the 21st century, as an agenda for 
        promoting American economic strength, national security, 
        employment opportunities, and social progress that will support 
        U.S. pre-eminence in discovery and innovation.

                        Membership and Structure

    The Board Commission will consist of up to fifteen (15) members 
appointed by the Chairman of the Board, in consultation with the full 
Board, the Executive Branch, Congress and other stakeholders. The Board 
Chairman will designate a Commission chairperson and vice chairperson 
from among the members. No more than three Commission members will be 
appointed from current Board membership. Commission members will be 
persons whose wisdom, knowledge, experience, vision or national stature 
can promote an objective examination of mathematics, science and 
technology education in the pre-K-16 system and develop a bold new 
national action plan for the 21st century.
    A quorum of the Commission will be a majority of its members. Terms 
of service of members will end with the termination of the Commission. 
The Commission may establish such working groups, as it deems 
appropriate. At least one member of each working group shall be a 
member of the Commission. A Commission member will chair each working 
group, which will present to the Commission findings and 
recommendations for consideration by the Commission. Timely 
notification of the establishment of a working group and any change 
therein, including its charge, membership and frequency of meetings 
will be made in writing to the Executive Secretary or his/her designee. 
Management (including Executive Secretary and Designated Federal 
Official (DFO)) and staff services will be provided by the Board Office 
under the direct supervision of the Board's Executive Officer. 
Commission working groups will act under policies established by the 
Commission, in accordance with FACA and other applicable statutes and 
regulations.

Meetings
    The Commission will meet as requested by the chairperson. Working 
groups will report to the full Commission and will meet as required at 
the call of their chairperson with the concurrence of the Commission 
chair. Meetings will be conducted, and records of proceedings will be 
kept, in accordance with applicable laws and regulations.

Expenses
    Per diem and travel expenses will be paid in accordance to Federal 
Travel Regulations.

Reporting
    The future action plan will especially focus on the appropriate 
role of NSF in collaboration and cooperation with other Federal 
agencies, State government, local school districts, gatekeepers, 
business and industry, informal STEM educational organizations, 
professional associations, scientific organizations, and parents and 
other citizens interested in improving education in mathematics, 
science and technology for our Nation's children. In addition to its 
final report, which is expected 12 months from the initial meeting, the 
Commission will submit to the Board periodic progress reports at least 
every 4 months. The Commission will develop an action plan that 
includes a plan for public dissemination and outreach for Commission 
activities, recommendations, and reports.

    Senator Hutchison. Thank you very much, Dr. Washington.
    Dr. Bement, I continue to have concerns that, at a time 
when our Nation is trying to meet a very important challenge 
for scientists and engineers and technology experts, that we 
are spending millions of dollars to support research in areas 
that may be valuable, and certainly are very interesting, but 
don't contribute to the push that we now have for science and 
engineering. And I don't mean to in any way belittle the great 
contributions that the NSF is making in scientific research. 
But even though it is a smaller part of the budget--millions 
are being spent on sociology, political science, areas where I 
just wonder if it is the right place for the National Science 
Foundation to be spending its valuable dollars.
    Dr. Bement. Yes, Madam Chairman. Let me point out that the 
National Science Foundation currently funds about 50 percent of 
the research being done at universities in what we call the 
social, behavioral, and economic sciences.
    First of all, this field is very broad. It's very difficult 
science. And it's also a field that gets very high returns, 
economic returns for the Nation. And I'd like to illustrate 
that, if I may.
    First of all, in its breadth it includes such fields as 
sociology, economics--in fact, in economics, the SBE 
directorate has supported 34 of the 57 Nobel laureates in 
economics. It does include political science, archeology, 
anthropology, geology, geography, which is essential for 
navigation and mapping technology from a GPS, linguistics, 
psychology, and neuroscience. And, through neuroscience, we 
learn about human cognition and child development, especially 
in a digital age, for which there is a great lack of learning.
    Also within this directorate is our Science Resources 
Statistics Division, which is responsible for our Science and 
Engineering Indicators Report, the Report on Education for 
Women and Minorities, and also a new initiative, which is very 
much tied to the American Competitiveness Initiative, which has 
to do with science metrics to determine how best to determine 
both the quantitative and the qualitative returns to the 
economy through investments in basic research. And just as an 
example of high returns that come from this research, NSF-
supported abstract auction theory in experimental economics, 
which provided the Federal Communications Commission with its 
current theory-derived system for appropriating the airwaves. 
Since their inception in 1994, FCC spectrum auctions have 
netted over $45 billion in revenue for the Federal Government, 
and more than $200 billion in worldwide revenues. That return, 
by itself, more than returns the investment in the SBE sciences 
since the beginning of the Foundation, in 1952.
    It's also very difficult science. If you look at just the 
field of neuroscience, it engages some of the most 
sophisticated instrumentation that we currently have--namely, 
electron encephalography, positron emission tomography, 
functional MRI, and many other tools. So, at the frontier, 
almost all the sciences converge, in one way or another, and we 
see convergence of the physical sciences with the social and 
behavioral sciences, and also with the biosciences. And they 
all leverage off one another, so that if you were to take one 
leg away from that chair, it would be a great loss.
    Senator Hutchison. Dr. Bement, I think some of these areas 
in this particular SBE directorate are quite valid--certainly, 
archeology, geography, linguistics. I think what concerns me is 
that at a time when we are trying to get every dollar directed 
toward the research that will keep America in the forefront 
economically, I look at this area--for instance, in political 
science, you have $238,000 for a study for the U.S. Senate 
election database to examine the behavior of State legislators 
in selecting U.S. Senators before the 17th amendment. You have 
almost $8 million in two awards to continue a study on, Why did 
America vote as it did on Election Day? This one will focus on 
the November 2006 elections. And I just question, when there is 
such a wide journalistic field, and books come out from 
journalists who cover these elections on a daily basis, 
sometimes for years, if that is $8 million that is well spent. 
$243,000 for studying, do Presidents' veto threats matter? I 
would just have to question where that would really lead a very 
narrow group, the President, and Congress, to determine a 
difference in behavior. $284,000 to study the quality of 
elections based on the respective candidates' policy positions. 
I think that can be done in a very realistic judgment call by 
how the ballots are cast on Election Day. There are others like 
that. That's just in the political science arena.
    And in the sociology arena, you have a study on religious 
involvement and mortality in the United States, the impact of 
global and national economic changes in Bangladesh on 300 urban 
women workers. I just point those out, not that they aren't 
interesting. And if we had excess money, perhaps we could look 
at things like that.
    But I ask you two questions. Do you think that we should, 
in any way, reassess what the mission of the National Science 
Foundation is, and perhaps, if we are going to study political 
science and social science, that it might go into another 
department which is not going to be, hopefully, our key 
foundation for our competitiveness initiative for the next 
century to make sure that America stays in the forefront in the 
hard sciences? And, second, do these merit the priority, given 
the other focuses that we have to have now for our engineering 
and science base?
    Dr. Bement. Madam Chairman, you raise some very important 
and interesting questions. Clearly, the mission of the 
Foundation is very broad. We support all the sciences and 
engineering fields. Clearly, the mandate intended of the 
Foundation is to deal not only with the economic development of 
the Nation, but also the quality of life. So, it does get into 
how society operates and how it functions and how its political 
institutions work, as well.
    I'd have to read into the details of these proposals, 
because oftentimes the title doesn't tell the whole story, but 
you're quite aware that we now have gone to national voting 
standards, and that involves new technology, but it also 
involves better understanding of human-technology interaction, 
and also ballot design and many other issues e.g., software 
development that also play a role. So, even though there is a 
technology component, you can't exclude the social and the 
economic impact, as well, of these voting standards.
    So, since the passage of that bill, the National Science 
Foundation has supported basic research in the process of 
voting. And some of these proposals that you cite, I would 
guess, are part of the body of knowledge that we're developing 
in that area.
    Senator Hutchison. Well, I certainly hope that we can look 
at that. If we are going to create a doubling of the NSF 
budget, I would certainly, for one, like to see that doubling 
go to the hard sciences, which is our priority, our mission, 
our focus right now, to bring America back into the forefront, 
and make sure we don't lose the lead that we have had. And I 
don't want the engine, which is the National Science Foundation 
that is going to be driving this mission, to be in any way 
burdened or--maybe you wouldn't call it ``burdened,'' but 
losing its total focus on this initiative. So, I hope we can 
explore that.
    Dr. Bement. Yes, well----
    Senator Hutchison. I do want to support the doubling of the 
budget, but I don't want to support what I might consider 
interesting research, but not experiments or research that 
would further the mission that we are trying to accomplish.
    Dr. Bement. One area that I have a particular interest in--
and I think this is where we have common ground--is to pay 
particular attention to those areas in the social, behavioral, 
and economic sciences that enable science and compress the lead 
time from discovery to application. And as we move into the 
digital age, there are new ways in which scientists work 
together, and many of those are social interactions. And if 
there are ways in which we can further that, make it more 
productive, then that would very much be at the heart of the 
American Competitiveness Initiative, and those are the areas 
that I would like to see us focus on.
    Senator Hutchison. Thank you, Dr. Bement.
    Senator Stevens?
    The Chairman. Thank you very much, Madam Chairman.
    Senator Nelson and Senator Sununu didn't get an opening 
comment. If they wish to make an opening comment, I'll be glad 
to yield--before they start.
    Senator Bill Nelson. I will just put one in the record, 
Madam Chairman.
    Senator Sununu. Well, I have a few questions that I'd like 
to ask, but I certainly would defer to you.
    The Chairman. Thank you. I just wanted to make sure you had 
a chance, in case you were going to have to leave.
    Dr. Washington, we're all familiar with the Augustine 
report that has been mentioned here. I found very interesting 
the comment that you made in your long statement, which I 
assume will be printed in full in the record. And let me read 
this, ``Nearly a quarter of a century ago, the National Science 
Board's Commission on Pre-College Education in Mathematics, 
Science, and Technology assessed the state of U.S. pre-college 
education in the subject fields, and found it wanting. In the 
intervening years, we have failed to raise the achievement of 
U.S. students commensurate with the goal articulated by that 
commission that the U.S. pre-college achievement should be, 
``the best in the world by 1995,'' and many other countries 
have surpassed us. Not only are they not first, but, by the 
time they reach their senior year, even the most advanced U.S. 
students perform at or near the bottom on international 
assessments. There is now an even more pressing need to build a 
new foundation.''
    Now, I think that's really what the Augustine report was 
aimed at. And I know both your entities cooperated extensively 
with them. But tell me, out there in the community--part of the 
community that you interact with, what's the feeling about that 
report? Is there a feeling of necessity that some of us up here 
feel about changing the way we do business?
    Dr. Washington. Yes, I would say so. In fact, the Board has 
published a number of studies, and most recently Science and 
Engineering Indicators, which came out in January. It 
essentially showed that those trends that we've seen in the 
past are still operating the same way, and we're not doing a 
good job. And, in fact, the commission I mentioned earlier is 
supposed to actually try to come up with an action plan that we 
can present to the President and to Congress for what needs to 
be done. And it should be a very prescriptive type document 
that will actually lay out all the way from kindergarten 
through grade 16, which is undergraduate education, it should 
essentially lay out what needs to be done to improve the 
science and engineering technology education in our society. 
And we're not doing a good job. I think you can read in the 
newspaper almost every day that we're falling behind certain 
other countries, and I think it's going to hurt us in the long 
run.
    The Chairman. Well, it's back in the last century, but I 
remember my high school experience, and the fact that the 
teachers of science and mathematics made the subjects come 
alive. Today, you know, as a father of six, I was surprised to 
see the comment that most high school students would rather 
take out the trash or clean their bedroom or wash dishes than 
study math or science. Now, what's caused the change in 
attitude of the teaching profession or approach that has taken 
out the spark in our basic education?
    Dr. Washington. Well, I think I had the same experience as 
you did. I was turned on by a high school chemistry teacher. 
She was just very fantastic in making science exciting, 
interesting. And that's what really got the spark in me to 
actually go into science. And I think that we need teachers of 
that type. But we need to support our teachers, and we need to 
train them better, give them more opportunities to get in-
service training so that they can be more effective in the 
classrooms. So, there's no simple silver bullet that will solve 
this problem. It's going to require a lot of different things 
happening to turn things around.
    The Chairman. Well, I know my time is running out. I don't 
know if you have any comment about it, Dr. Bement, but my kids 
tell me that the difference is that we had to look up the 
things in books; they just press buttons on the computer and 
out come the answers, and they don't have to think about what 
gave them those answers. They get them automatically. Because 
of the new systems we use to teach, are we straying away from 
the personal contacts that have to be achieved between teachers 
and students to give them that incentive to excel and to 
explore? What do you think, Dr. Bement?
    Dr. Bement. Yes, Senator, I think you've put your finger on 
several key issues. We focus pretty much on encouraging 
inquiry-based learning, where the students take an interest in 
asking questions and pursuing knowledge surrounding math or 
science, discovery-based knowledge, where they have the 
opportunity to do some hands-on activities, so they learn as 
they discover, and also to develop a stronger base of 
conceptual knowledge. Now, that takes a teacher that has not 
just pedagogical knowledge, but has content knowledge, and 
knows how to integrate the two, and motivate, and deal with the 
various cognitive skills of the students. In other words, she 
has to address all the students in the class, not just a small 
fraction. Those are the kind of advances that we're trying to 
support through our education initiatives in K through 12. And, 
as an important element of that, we're also investing in trying 
to improve undergraduate training of teachers, especially in 
the STEM fields, where they do get math content and science 
content, not in the schools of education, but in the schools of 
arts and science, where they take a much more rigorous 
preparation.
    We also have scholarships, some of which are identified in 
the Alexander-Bingaman bill. One of them is the Noyce 
Scholarship, where we provide scholarship support for students 
in undergraduate education who are taking STEM preparation that 
will also add to that preparation 2 years of education and then 
get certified, and then bring that content knowledge into the 
classroom.
    Through our Math and Science Partnership Program, just last 
year, we increased the number of STEM-prepared teachers in math 
and science by over 400. Well, that's a small increment. We 
need to build that increment across the Nation. And that will 
take additional resources. But at least we know, and we have 
measurements, and we have data, to indicate that that really 
does have a positive impact.
    The Chairman. My time's up. I've got a lot more questions, 
but my time's up. I really think the problem is the stimulus 
have to come from the contact of the teaching profession, and 
it's not there today, like it used to be.
    Dr. Bement. You're right. I agree.
    Senator Hutchison. Thank you, Mr. Chairman.
    Senator Nelson?

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Bill Nelson. And, if you will, Madam Chair, put my 
opening statement into the record?
    Senator Hutchison. Without objection.
    [The prepared statement of Senator Bill Nelson follows:]

   Prepared Statement of Hon. Bill Nelson, U.S. Senator from Florida

    Madam Chairman, I thank you for calling this important hearing and 
I welcome the panelists. I am very interested in the work of the 
National Science Foundation and happy to see a requested budget 
increase for NSF in Fiscal Year 2007.
    I believe our country is at a crossroads. For generations the 
United States has been the envy of the world with its innovations, 
inventors, and new markets that were created as a result. More recently 
however, we have seen erosion in the numbers of students going into 
math and science fields, the loss of high technology jobs overseas, and 
an overall reduction in investment in basic research that spawns 
invention. Rather than dwell on the losses however, I am optimistic 
that we can turn things around.
    I am encouraged by the thoughtful discourse we have been having 
over the past year on the issues of innovation and competitiveness. I 
believe NSF programs are a key part of bringing this country back to 
the forefront of science and technology discovery and innovation--
specifically with NSF investment in education and basic research 
programs.
    It is imperative that we replenish our Nation's pipeline of young 
scientists and engineers, and re-fill the well of basic research 
knowledge that will bring the innovations of tomorrow. If America does 
not, others surely will.
    Much of the NSF's mission dovetails nicely with key features in the 
two sets of landmark bills that I co-sponsored: The Protecting 
America's Competitive Edge (PACE) Act and the National Innovation Act 
of 2005.
    The PACE legislation focuses on retaining America's science and 
technology edge; sets the path for keeping the U.S. competitive in the 
world marketplace; and provides for investments in math and science 
education. The National Innovation Act legislation specifies the 
development of American scientists, mathematicians, and engineers; 
increases funding toward multidisciplinary and frontier research; 
secures a strong advanced manufacturing base in the United States; and 
makes innovation a fundamental economic priority for our country.
    I am excited about the provisions that are in these bills. I will 
continue to work with my colleagues in Congress to see that these 
important pieces of legislation become law.
    By fully funding NSF, enacting the PACE and National Innovation 
Acts into law, I believe our country will be making appropriate and 
vital course corrections to retain our scientific and technological 
leadership on the world stage.
    I look forward to hearing your ideas and recommendations for NSF 
and its science priorities.

    Senator Bill Nelson. And I want to follow up on Senator 
Stevens' question. I agree with him, but that doesn't explain 
why China's graduating 600,000 engineers; India, 350,000; and 
the U.S. is graduating 70,000. Why?
    Dr. Bement. Well, I think, as Lenin said, quantity has a 
quality of its own. They have the quantity, they are making the 
investment. They're investing in the universities and colleges. 
And they see that their future is educating their workforce and 
that the greatest asset that they have is human resources. And 
so, they're going to educate those human resources. And, quite 
frankly, they're making very good progress. And so, we have to 
learn how to compete.
    Senator Bill Nelson. Well, if we recognize that, then in 
light of exactly what Senator Stevens said, we want to promote 
math and science. Why aren't we spending more on education 
programs? Why is there a 20-percent cut below 2004 in real 
terms in your budget request?
    Dr. Bement. Senator, the total budget for education is both 
in our EHR directorate, as well as in our Research and Related 
account directorates. And if you look at all the investment in 
education, it is actually a plus. It's not only a plus for K-12 
education, but it's a plus for undergraduate education. But the 
program change that really dominates those figures is the 
reduction in our Math and Science Partnership and the 
determination by the Administration that we will not do new 
starts, that that will continue to sustain the program that we 
currently have, which, incidentally, is the largest math and 
science education program that the Foundation has ever 
undertaken. It involves as many as 4 million students, 500 
school districts, and a large number of schools. And it also--
--
    Senator Bill Nelson. Let me interrupt you, because we're 
going to have to go to a vote. Do you know a Dr. Leshner?
    Dr. Bement. I do know him, very well. He's a----
    Senator Bill Nelson. Chief executive----
    Dr. Bement.--very good friend.
    Senator Bill Nelson.--officer of the----
    Dr. Bement. He's sitting in back of me.
    Senator Bill Nelson.--American Association of the 
Advancement of Science.
    Dr. Bement. Yes, of course. I'm----
    Senator Bill Nelson. OK. Well, listen to what----
    Dr. Bement. I'm a card-carrying member.
    Senator Bill Nelson.--listen to what he writes, ``We are 
concerned that the NSF's Education and Human Resources budget, 
in contrast to the research budget, would increase just 2.5 
percent. This means that it would remain 20 percent below the 
2004 funding level in real terms. Small increases in graduate 
education and human resource development programs would be 
offset by cuts to undergraduate education programs, and 
research on how students learn would be flat-funded.'' That's 
opposite of what you just said.
    Dr. Bement. Well, I don't necessarily disagree with those 
statements, as it applies only to the Education and Human 
Resources directorate. But, again, I would call attention to 
the fact that we make substantial investments in our Research 
and Related account directorates to education, to broadening 
participation, and to fellowships. A lot of the fellowship 
support and research experience for undergraduate support comes 
out of R&RA, not out of the EHR account. So, if you add up all 
the components that contribute to education and broadening 
participation, it's much greater than 2.5 percent.
    Senator Bill Nelson. What do you think are the areas the 
United States is lacking in basic research investment?
    Dr. Bement. That is a relative question that is very 
difficult to answer, because it's relative to where we stand 
with the rest of the world and where we choose to compete. And 
it's also a question that changes almost daily. I think I'd 
like to take a crack at addressing that for the record.
    Senator Bill Nelson. OK. When you do, please address what 
kinds of innovations would be lost to foreign markets as a 
result.
    Dr. Bement. Very good.
    [The information referred to follows:]

    The U.S. accounts for approximately one-third of global research 
and development (R&D) spending (more than the rest of the G-8 nations 
combined). In 2004, the United States performed an estimated $58.4 
billion of basic research. Universities and colleges have historically 
been the largest performers of basic research in the U.S., and in 
recent years have accounted for over half (55 percent in 2004) of the 
Nation's basic research. Most basic research is federally funded.
    Because it is not possible to predict the area of science and 
engineering that will be responsible for the next breakthrough 
technology, investment is needed across all science and engineering 
fields. Today's transforming technologies and most popular consumer 
items have deep roots in basic and applied research.
    Among the National Science Foundation priority areas are Networking 
and Information Technology Research and Development (R&D) and Nanoscale 
Interdisciplinary Research where additional investments are expected to 
yield new discoveries. Although NSF is making significant investments 
in basic research across all areas necessary to maintain our position 
at or near world leadership, many good ideas go unfunded. The 2005 
success rate for research grant proposals in Molecular and Cellular 
Biology, for example, was 13 percent. In the Information and 
Intelligent Systems division the success rate was 11 percent and in 
Bioengineering and Environmental Systems it was 10 percent. All of 
these areas are significant for laying the groundwork for discoveries 
that could have enormous economic implications. We also see 
opportunities for research in neuroinformatics, nanobiotechnology, 
environmental biotechnology, applications of biotechnology to bio-based 
products and fuels, and in the developing area of synthetic genomics.
    The American Competitiveness Initiative seeks to increase 
investments in basic research and support more of the quality ideas 
such as those represented in proposals that are currently submitted to 
NSF.
    While it is not possible to forecast what innovations might be lost 
to foreign markets, the nature of S&T is global. There are a rising 
number of companies' international alliances devoted to joint R&D or 
technology development. The number of new international alliances rose 
from under 100 in 1980 to 183 in 1990 and 342 early in the new century. 
Historically, U.S. companies have been involved in 75 percent to 86 
percent of these alliances. Speed to market is currently a strategy 
used by many U.S. companies to assure comparative advantage of 
innovations in a global market.

    The Chairman. [presiding] Senator, let Senator Sununu in 
here. We all have to go vote in a minute.
    Senator Bill Nelson. Sure.
    The Chairman. Thank you.
    Senator Sununu?

               STATEMENT OF HON. JOHN E. SUNUNU, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Sununu. Thank you, Mr. Chairman.
    The Chairman. Have you turned on your mike?
    Senator Sununu. I am on.
    Dr. Bement and Dr. Washington, I don't know you especially 
well. I certainly have information here about your background. 
But I'm a little bit troubled by all of this discussion, its 
general focus. And I'm going to go through a number of points, 
and then, by all means, you can have ample time to express some 
commentary for the record.
    We can begin with Senator Nelson's last question, which I 
think is a very good question. What area of basic science do 
you think we ought to apply additional resources? And when the 
head of the National Science Foundation comes before this 
Committee or Subcommittee and has trouble answering that 
question, or at least presenting an answer to that question, I, 
frankly, have to wonder exactly what you're spending your time 
on, because that's exactly the question that we expect you to 
come here and, whether it's presenting an Administration 
overview or your own opinion, at least be able to discuss what 
key areas of basic science that you think we ought to be 
allocating more funds.
    Conversely, you seem to have no trouble in defending 
studies that look at how and why people vote for the United 
States Senators, which, although that is my profession at the 
current time, I don't think is a good expenditure of National 
Science Foundation resources.
    This is the one central organization that we have to make 
investments in peer-reviewed science. And you talked about a 
broad science agenda. Well, I would disagree, in this respect. 
You've mentioned psychology and neurosciences and health 
sciences. That's what we have the NIH for. And the NIH right 
now has $28 billion a year to invest in precisely those areas. 
And if I were in your position, I would be guarded and 
protective of those areas that I, as the National Science 
Foundation was chartered to research and to allocate funds to, 
and I would be very reluctant to provide resources in areas 
like neurosciences or psychology that are right in the front of 
the NIH agenda, as they should be--mental health and physical 
health. That's exactly what we have the NIH for. There are some 
people that think, well, you know, maybe $28 billion a year is 
ample funding, at least to the extent as we ought to begin 
redirecting resources to the National Science Foundation. But I 
don't think it helps your cause when you describe your agenda 
as being sort of broad and amorphous. Agricultural sciences, 
that's why we have Department of Agriculture research; Ocean 
sciences, NOAA; space sciences, NASA.
    Your charter is to focus on fundamental sciences--physics, 
chemistry, material science, computational mathematics, and a 
few other core areas--through a peer-reviewed process. And I 
know, in this day and age, everyone loves to talk about 
education. And it makes us, maybe, popular. It makes it sound 
like we care. We care about education, we care about the 
children, we care about the future. But to start diverting 
resources to K-12 education in the National Science Foundation, 
I also think is unproductive, when we're spending $40 billion 
in the Department of Education. You talked about going forward 
with your advisors in the National Science Foundation and 
making recommendations on K-12 math and science. Now, I would 
imagine some people at NSF have good perspective, an 
interesting perspective in this area, but what are we doing in 
the Department of Education if they're not able to put forward 
such a proposal?
    It is very difficult to feel confident and comfortable 
about the direction that you're taking the National Science 
Foundation, when it seems that your own emphasis on its core 
mission, in my opinion, leaves a little bit to be desired.
    Dr. Bement. Well, Senator, let me----
    Senator Sununu. I would be happy to hear your comments.
    Dr. Bement. Yes. Let me respond to those, straightaway.
    Clearly, there was a time when the United States could 
dominate in every field of science. That day is long past. We 
have to now select those areas where we need to be dominant in 
science. And one might argue, well, national needs is an area 
where we really need to be dominant in science. But the 
national needs are broad. One can cite defense, national 
defense or national security. Clearly that's important. One can 
select homeland security. And we are investing in those areas, 
as far as the basic science is concerned. And those are the 
ones that I would cite as are being very critically important. 
As far as human----
    Senator Sununu. I'm sorry, I just want to be clear. So 
you're making investments in defense R&D, in particular, right 
now?
    Dr. Bement. No, we're not making investments in defense 
R&D. But the question that Senator Nelson asked me was, Where 
are the most important areas of basic science? And I'm just 
trying to illustrate a point, that one has to put that question 
in context. If you put it in the context of national needs, 
clearly I can give you a litany, or I can give you a long list 
of areas where we really need to be dominant in science, 
because of national interests. But there are many fields of 
emerging technologies that deal with economic development. And 
if you cite economic development as a major national need, I 
can give you another list, in terms of biotechnology, 
nanotechnology, information technology, and all the science----
    Senator Sununu. And I'm going to respond----
    Dr. Bement.--that undergirds that.
    Senator Sununu.--that if you can tell me what the economic 
value of a specific piece of research is, you shouldn't be 
putting any money into it, because that's exactly what we have 
a venture capital community for. And the National Science 
Foundation is the one part in the Federal Government, and the 
one area of research, where I don't want to hear about the 
specific job creation impact, because you can't tell me, just 
as those that were looking at the mathematics of either multi-
tiered or multi-person or multi-vote--or multi-choice auctions 
couldn't just tell exactly what the applications would be and 
what its benefit would be when they were doing it. Those that 
were looking at cryptography or computational mathematics in 
the 1970s, early 1980s, they didn't have the World Wide Web in 
mind, because it didn't exist yet. And yet, now those are all 
central to the e-commerce that we enjoy today. If you can tell 
me what the economic value of a specific piece of research is, 
then it probably ought not to be funded by the National Science 
Foundation.
    Dr. Bement. Well, I couldn't agree with you more.
    Senator Sununu. I'm relieved to hear that.
    Dr. Bement. I think the point you're making is that the 
National Science Foundation should be doing frontier research. 
We should be focused on the frontier. We shouldn't be dealing 
with downstream-type developments or applied research. I don't 
think I have any disagreement with that.
    Senator Sununu. Well, I appreciate your candor, and I think 
this is an extremely important hearing. I have long been an 
advocate for doubling funding for the National Science 
Foundation, because certainly until recent years, at the very 
least, the money went to peer-reviewed basic research. And 
today, I think, partly because of the vague message that some 
people have been sending, we have proposals on the table to 
take 8 or 10 percent of the funding of the National Science 
Foundation out of the peer-review process. We have people who 
are proposing to expand the educational mission of the National 
Science Foundation. And I want to do as much as possible for 
math and science education, but we should do it through the 
Department of Education, where we're expending resources 
specifically for that purpose. And if we're not clear that you 
and Dr. Washington and others aren't willing to stand up and 
defend and protect the mission in the peer-review process, and 
the commitment to basic sciences, then there's going to be no 
one left to fulfill that important goal.
    Dr. Bement. Well, I can assure you, Senator, that I am very 
committed to that, and that we're going to protect the peer-
review/merit-review process.
    Senator Sununu. Thank you very much.
    Senator Hutchison. [presiding] Thank you very much, Senator 
Sununu.
    I appreciate very much the interest that we have had in 
this hearing, and I hope that you are getting the gist of some 
of the Members of Congress anyway.
    Basically, I think what we're trying to say is that we're 
getting ready to embark on a huge new initiative to bring 
America back to the forefront. We see--not that America has 
fallen second, but that if we don't do more, we will fall 
behind others--other countries that are emerging. And if the 
National Science Foundation is going to be the body in which we 
put our faith that you can help us deliver this kind of result, 
we want the National Science Foundation to be meticulous in 
focusing on that mission.
    And let me just ask you, If we double the funding, as I'm a 
cosponsor of the bill to do, of the National Science 
Foundation, for research into the hard sciences and technology 
and engineering and math, are you--would you be committed to 
keeping that focus there for that doubling----
    Dr. Bement. Yes.
    Senator Hutchison.--in line with the mission that we are 
trying to accomplish?
    Dr. Bement. I can assure you of that.
    Dr. Washington. Yes, I can say the same.
    Senator Hutchison. Thank you.
    Let me ask you one other question. And this is related to 
NASA. One of the things that I have been trying to do is keep 
the basic science research in NASA. And when we reauthorized 
NASA, which was the first reauthorization bill we had had in 5 
years for NASA, to give it the Congressional mandate to go to 
the Moon, and beyond, to Mars, unfortunately what was beginning 
to suffer was the basic science, the commitment to the Space 
Station. We created a national lab for the American part of the 
Space Station, so that we could have other resources for 
funding the basic sciences. We also required 15 percent of 
NASA's research budget to go to the hard sciences, not just the 
research that was the life-sciences research on the body and 
how it responds to space. That is a priority for NASA, and we 
understand that. But it is also a priority to have the basic 
science research on the Space Station. We spent billions of 
dollars to build the Space Station, and the biomedical research 
that is being done there has already proven to be hugely 
productive. And now, that is what is being cut. So, we are 
mandating the 15 percent set-aside for hard sciences.
    So, this is my question. To what extent is there 
cooperative research with the NSF and NASA? I know there is 
some, but I'd like to know what priority you put on it and if 
you have looked at your science and research activities in 
relation to NASA to see where there could be joint activities 
that would be productive for hard sciences using the 
International Space Station and NASA resources.
    Dr. Bement. Yes. Let me answer that question in three 
parts, since I think there are three questions there.
    First of all, we have a number of memorandums--memoranda of 
understanding with NASA. And we have sent a package over to 
Chairman Stevens, as of this morning, that delineates all of 
those memorandums of understanding. Some of them have to do 
with EPSCoR, cooperation in EPSCoR. A lot of them have to do 
with understanding atmospheric science and understanding Earth 
sensing and elements that deal with long duration balloon 
flights. But those are only examples of a number of areas where 
we're actively cooperating.
    The second part, I do have an understanding of the 
importance of the International Space Station, because I served 
on NASA's Space Station Utilization Subcommittee that dealt 
with just how we were going to spend that 15 percent. So, I do 
have a direct understanding of some of the important research 
that can be done there.
    I can also say that the Foundation does accept unsolicited 
proposals. About half our proposals are unsolicited. And we 
would entertain proposals for doing research on the Space 
Station. We would treat them like any other proposal, and we 
would peer review them the same way.
    Senator Hutchison. Thank you.
    I'm very pleased that you are on that committee, because I 
think that----
    Dr. Bement. I'm not on the Committee, presently. I was on 
the Committee.
    Senator Hutchison. Well, maybe we need to put you back on 
the Committee. I have to say, in the NASA authorization, and in 
the defense authorization bill, I required the Department of 
Defense and NASA to jointly look at their research projects to 
see if there was duplication and to try to work together to 
stretch the dollars, because in government we shouldn't be 
duplicating efforts. I think the National Science Foundation 
and perhaps now the Department of Energy could also be 
coordinated with NASA and do more with our dollars if we put 
all of the good minds together on the projects that can be done 
jointly.
    Dr. Bement. Yes, ma'am, I understand that. We've had a 
long-time close working relationship with NASA.
    Senator Hutchison. Well, I hope you will, after this 
hearing, make it a point to look at other areas, and perhaps 
meet with Michael Griffin, and put your teams together to see 
if we could do even more.
    Dr. Bement. In fact, we have an embarrassment of riches. 
Actually, my deputy, Dr. Olsen, is the former chief scientist 
of NASA. So, we do have a lot of internal knowledge about NASA 
programs.
    Senator Hutchison. Well, ask him----
    Dr. Bement. Her.
    Senator Hutchison.--her--oh, good----
    [Laughter.]
    Senator Hutchison.--I wasn't sure--ask her, please, to 
start putting her creative juices to work and seeing if there 
is more that can be done, because, frankly, in the President's 
initiative, the Competitiveness Initiative, I immediately 
thought that we should be coordinating our basic science in 
NASA and the National Science Foundation in this initiative 
because NASA has been responsible for inspiring so many young 
people to go into science, and I want to make sure that we are 
putting the two major science government initiatives together, 
I guess, along with the defense--DARPA research component as 
well as NIH. I mean, there are a number of them, but I think 
particularly if we put all of those together as we are looking 
at the big picture of competitiveness, and where we stand, and 
where we need to go, that we should be coordinating better all 
of our basic science research arms to coordinate----
    Dr. Bement. Yes.
    Senator Hutchison.--results.
    Dr. Washington?
    Dr. Washington. I was just going to make the point that the 
Board is actually starting a study to look at the international 
aspects of science and engineering. We know that the science is 
becoming more global and that we need to make changes in our 
way of thinking. So, I would say that as part of our exercise 
to look at the international aspects, that we will be looking 
at the NASA/NSF partnership.
    Senator Hutchison. Great. I'm very pleased that you are 
looking at that, because I believe that with the Augustine 
report, that has really been the red flag to all of us. I think 
it is incumbent on us to look at every place we are doing basic 
research. And, you know, in a way, I think we could even do 
more international cooperation so that we're not duplicating 
efforts that are being done elsewhere, and use our resources to 
go into new fields, more creative fields. But one of the 
examples that was given in a hearing that the Commerce 
Committee had by Dr. Ting, the Nobel laureate from MIT who said 
that he believes the most forceful source of energy that we 
don't understand is cosmic radiation, which you can see in its 
natural state in space, and study it for clues to help guide us 
to the next generation of energy producers, that the Space 
Station and space might be the place to look. And it happens 
that that is one of the experiments of the International Space 
Station that might not be completed. Senator Stevens and I are 
both very concerned about that. And we want to make sure that 
we do have all of the capabilities to look for every source of 
energy at a time when we know what is happening in the world; 
and 25 years from now, if we don't do something about it, we 
will crowd out all of the energy in the world, and we will all 
be deficient. So, that's what we're facing.
    Well, I thank you. We do have a second panel, and I want to 
call that panel, but I want to be clear that the National 
Science Foundation has a great reputation. And the research 
that is and has been done is totally respected and well 
regarded. We are now into the next generation of commitment to 
science for our country, and I just want to make sure that we 
are not dissipating resources, that we're not wasting 
resources, and that maybe we should look at other places to go 
for some of the peripheral or other types of scientific 
research and let National Science Foundation do what we know it 
does best, and put all the resources there for that purpose. 
That was my mission today.
    Thank you.
    Did you have any further questions of this panel?
    The Chairman. No. I would like to visit with you sometime. 
We do still have a problem finding a way to upgrade science and 
technology in the total government--Congressional system, and I 
would like to get your viewpoints, particularly you, Dr. 
Washington--you're going to step down, but you, too, Dr. 
Bement. I look forward to it.
    Thank you.
    Dr. Bement. Thank you.
    Senator Hutchison. Thank you very much. I appreciate your 
being here and your candor.
    I would now like to ask Dr. Alan Leshner, the Chief 
Executive Officer of the American Association for the 
Advancement of Science, and then Dr. Jerome Odom, the Professor 
of Chemistry and Former Provost of the University of South 
Carolina, the Chairman of the IdeA Foundation.
    [Pause.]
    Senator Hutchison. Dr. Leshner, welcome.

              STATEMENT OF ALAN I. LESHNER, Ph.D.,

         CHIEF EXECUTIVE OFFICER, AMERICAN ASSOCIATION

                 FOR THE ADVANCEMENT OF SCIENCE

    Dr. Leshner. Thank you very much. Good afternoon--thank 
you. Good afternoon, Madam Chair and Senator Stevens. It's 
really a pleasure to be here. Thank you for this opportunity to 
testify on behalf of the Fiscal Year 2007 budget request.
    I'm here representing the American Association for the 
Advancement of Science, which we call AAAS. We're the world's 
largest general scientific society, and publisher of the 
journal Science. AAAS was founded in 1848. We have 262 
affiliated societies and academies of science, altogether 
representing some 10 million scientists around the world.
    I'd like to start by saying we applaud the Administration's 
recognition, in its budget proposal for NSF, of the importance 
of a broad, balanced portfolio of R&D investments. The need for 
strong support across all scientific fields comes both from the 
increasing interdependence of physical, biological, behavioral, 
and social sciences, and from the importance of all these 
fields to innovation and to the improvement of the economy, 
health, and quality of life of all Americans.
    In fact, based on the opportunities that will still go 
unmet, in spite of the increases proposed by the President, we 
believe even greater support would be well justified. After 
all, the proposed increases are only a beginning in redressing 
some of the real-dollar declines in NSF's budget that have 
occurred over the course of the last few years.
    Moreover, as pointed out in the landmark reports from the 
National Academies and the bipartisan Congressional Summit on 
Competitiveness, it's exactly the kind of research and 
education supported by NSF that underpins future innovation, 
economic growth, and the health of all citizens in this 
science- and technology-dependent era.
    We're particularly concerned that NSF's Education and Human 
Resources budget would increase just 2.5 percent in 2007. This 
means that it would remain 20 percent below the 2004 funding 
level in real terms. Ironically, this low education budget is 
proposed at the same time as we are recognizing just how 
important improving math and science education is to 
guaranteeing the United States future economic competitiveness. 
NSF, as an organization of scientists, is best suited to 
develop techniques to improve the teaching of how science 
really works. NSF has a demonstrated record of excellence in 
science education, and it's important that the agency receive 
the funding it needs to take advantage of this expertise.
    More generally, NSF is the second-largest funding source 
for research and development at colleges and universities, 
behind only NIH. NSF provides the majority of Federal support 
for basic research at colleges and universities in the social 
sciences, environmental sciences, nonmedical biology, 
mathematics, and computer sciences. For the physical sciences 
and engineering, NSF funds more than 40 percent of all 
federally-supported academic basic research.
    Unfortunately, even with the proposed 2007 budget 
increases, the agency would still fund fewer than 25 percent of 
the proposals it receives. This matters because it means a 
great amount of very important work will go unfunded. Greater 
contributions to society could be reaped with a larger 
investment. According to a report recently issued by the 
National Science Board, of which, I should say, I am a member, 
NSF had to turn down almost $1.8 billion in proposals that had 
been rated as highly as had been those projects it funded. This 
almost $2 billion in declined proposals represents a rich 
portfolio of unfunded research opportunities, and it's 
unfortunate for the country that we can't support them.
    As examples of opportunities that could be lost, in July 
2005 our journal, Science--I think you have copies of this--
celebrated its 125th birthday by publishing a special issue on 
``125 questions: What Don't We Know? ''--rather than, What do 
we know? Answering virtually every one of those questions 
depends on NSF-supported research. Examples of Science's 125 
important unanswered questions include things like: What are 
the limits of conventional computing? What are the limits of 
learning by machines? Can researchers make a perfect optical 
lens? Are there earthquake precursors that can lead to useful 
predictors? What's the biological basis of consciousness? How 
do organs and whole organisms know when to stop growing? Why do 
some countries grow and others stagnate?
    Importantly, every NSF directorate, from the behavioral and 
social sciences through the life sciences, to math and physical 
sciences and engineering, plays a critical role in this 
important work. At a minimum, we urge you to support the 
President's request for NSF. If it's possible to provide an 
increase above the President's request, it would be a sound 
investment in the future of our country and the quality of life 
of our citizens.
    Thank you very much.
    [The prepared statement of Dr. Leshner follows:]

Prepared Statement of Alan I. Leshner, Ph.D., Chief Executive Officer, 
          American Association for the Advancement of Science

Introduction
    Good afternoon, Madam Chairwoman and Members of the Subcommittee. 
Thank you for this opportunity to testify before you today on the FY 
2007 research and development (R&D) budget request for the National 
Science Foundation.
    The American Association for the Advancement of Science (AAAS) is 
the world's largest general scientific society and publisher of the 
journal, Science (www.sciencemag.org). AAAS was founded in 1848, and 
includes some 262 affiliated societies and academies of science, 
representing 10 million individuals. Science has the largest paid 
circulation of any peer-reviewed general science journal in the world, 
with an estimated total readership of over one million. The non-profit 
AAAS (www.aaas.org) is open to all, and our members come from the 
entire range of science and technology disciplines. AAAS fulfills its 
mission to ``advance science and serve society'' through initiatives in 
science education; science policy; international programs; and an array 
of activities designed both to increase public understanding and engage 
the public more with science.
    From our unique perspective, AAAS recognizes, as does the 
Administration in its budget proposal for NSF, the importance of a 
broad, balanced portfolio of R&D investments. The need for strong 
support across all scientific fields comes both from the increasing 
interdependence of physical, biological, behavioral, and social 
sciences, and from the importance of all these fields to innovation and 
to the improvement of the economy, health and quality of life of all 
Americans.
    In fact, based on the scientific and, therefore societal, 
opportunities that will still go unmet, we believe even greater support 
would be justified than that proposed in the President's budget for the 
kind of cutting-edge, breakthrough research that universities and 
national laboratories are uniquely qualified to conduct. As pointed out 
in the landmark report from the National Academy of Sciences, ``Rising 
Above the Gathering Storm'', and the bipartisan Congressional Summit on 
Competitiveness, it is this kind of research and education in these 
fields that underpin future innovation, economic growth, and the health 
of all citizens in this science and technology dependent era.
    This perspective is consistent with the President's request to 
increase support for the National Science Foundation (NSF), because the 
Foundation plays such a special role in ensuring that America will 
continue to lead the world in scientific discovery and technological 
development. Given its singular ability to support broad-based 
transformational basic research, distinct from the many mission-
oriented Federal agencies and departments, we are delighted by the 
emphasis that the White House gives to the NSF in fiscal year 2007. We 
only regret that additional funds have not been proposed, since even 
with these increases, a large array of very exciting and important 
opportunities across the many fields of science will go unmet.

NSF and the ACI
    President Bush's proposed FY 2007 budget recommends increases for 
key physical sciences research agencies as part of the ``American 
Competitiveness Initiative'' (ACI) that begins to respond to the 
growing wave of concern about the state of U.S. innovation. The ACI 
proposes to double funding for three agencies over the next decade, and 
the 2007 budget requests the first installment of this ambitious plan. 
The National Science Foundation (NSF) is one of the three favored 
agencies (the others are the DOE Office of Science, and the National 
Institute of Standards and Technology laboratories), and would receive 
a significant increase in the 2007 budget that would begin to turn 
around the decreases that came with the past two years of declining 
funding.
    As part of the ACI, NSF would receive a 7.9 percent increase for a 
total budget of $6.0 billion in FY 2007. The R&D portion of NSF's 
budget would total $4.5 billion, a gain of $348 million or 8.3 percent. 
This would bring the R&D total slightly above 2004 levels in inflation-
adjusted terms after cuts in 2005 and 2006. It is important to note 
that the proposed increases go not only to NSF's investment in the 
physical sciences but across the entire NSF research portfolio, which 
spans the range of science and engineering disciplines. This translates 
into increases between 5 and 9 percent for most research directorates 
after several years of flat or declining funding. Unfortunately, when 
viewed in constant dollars the President's proposed budget would still 
not restore the total NSF budget to pre-2004 levels (see Chart 1).

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Research and Related Activities (R&RA) would receive $4.7 billion, 
an increase of $334 million or 7.7 percent above the FY 2006 level. The 
research directorates and offices would receive the following:

  <bullet> Biological Sciences (BIO): $608 million (up $31 million or 
        5.4 percent).

  <bullet> Computer and Information Science and Engineering (CISE): 
        $527 million (up $30 million, or 6.1 percent).

  <bullet> Engineering (ENG): $629 million (up $48 million, or 8.2 
        percent).

  <bullet> Geosciences (GEO): $745 million (up $42 million, or 6.0 
        percent).

  <bullet> Mathematical and Physical Science (MPS): $1.15 billion (up 
        $65 million, or 6.0 percent).

  <bullet> Social, Behavioral and Economic Sciences (SBE): $214 million 
        (up $14 million, or 6.9 percent).

  <bullet> Office of Polar Programs (OPP): $438 million (up $49 
        million, or 12.5 percent).

  <bullet> Office of Cyberinfrastructure (OCI): $182 million (up $55 
        million, or 43.5 percent).

  <bullet> Office of International Science and Engineering (OISE): $41 
        million (up $6 million, or 17.6 percent).

  <bullet> Integrative Activities: $131 million (down $6 million, or 
        4.2 percent).

NSF and Math and Science Education
    We are concerned that the NSF's Education and Human Resources (EHR) 
budget, in contrast to the research budget, would increase just 2.5 
percent to $816 million in 2007. This means that it would remain 20 
percent below the 2004 funding level in real terms. Small increases in 
graduate education and human resource development programs would be 
offset by cuts to undergraduate education programs, and research on how 
students learn would be flat funded.
    In addition, the budget request for the Math and Science 
Partnership (MSP) would decline, marking the third straight year that 
this program has been unable to provide any new awards. Despite 
expressions of national concern that we must enhance science and math 
education, the MSP program request for FY 2007 is merely $46 million, a 
reduction of $17 million from last year.
    As the National Academies recognized in ``Rising above the 
Gathering Storm,'' improving math and science education is crucial to 
guaranteeing the United States' future economic competitiveness, and 
therefore I believe math, science and engineering education merit 
greater support than has been provided in the President's budget.
    AAAS's Project 2061 has found that, too often, science students 
simply memorize vocabulary words and facts instead of gaining a deep 
understanding of the concepts and processes of science. NSF, as an 
organization of scientists, is best suited to develop techniques to 
improve the teaching of how science really works. NSF, and EHR in 
particular, has a demonstrated record of excellence, and it is 
important that the agency receive the funding it needs to take 
advantage of this expertise. NSF's connections with working scientists 
ensure that students can be exposed to science in a manner that goes 
beyond memorizing textbooks and parroting responses of standardized 
testing.
    In addition, investing in the activities of the EHR directorate 
will allow our students to benefit from NSF's merit review system. 
There also are lessons that are learned uniquely from competitively 
awarded grants that link research with evaluation, and thus, inform us 
of what works and what does not in education.

NSF Trends
    NSF is the third-largest Federal sponsor of physical sciences 
research, after DOE and NASA, and is among the top 3 Federal funding 
agencies for nearly every science and engineering discipline. It is 
also the second largest funding source for R&D at colleges and 
universities behind only the NIH and provides the majority of Federal 
support for basic research at colleges and universities in the social 
sciences, environmental sciences, non-medical biology, mathematics, and 
computer sciences. For the physical sciences and engineering, NSF funds 
more than 40 percent of all federally-supported academic basic 
research.
    As I have mentioned previously, the increases for NSF would go to 
support programs throughout the agency's portfolio. In the attached 
chart (see Chart 2) * you can see that between 2000 and 2007 the 
majority of the NSF directorates have followed more or less parallel 
paths as the agency's budget authority has increased or decreased.
---------------------------------------------------------------------------
    * See chart on page 7 of this hearing.
---------------------------------------------------------------------------
    Unfortunately, even with the proposed 2007 budget increases, the 
agency would still fund fewer than 25 percent of the proposals it 
receives. This is significant because according to a report issued by 
the National Science Board (of which I am a member), in ``FY 2005, 
close to $1.8 billion of declined proposals were rated as high as the 
average rating for an NSF award (4.1 on a 5-point scale). These 
declined proposals represent a rich portfolio of unfunded research and 
education opportunities.''

Conclusion
    We at AAAS applaud the increases proposed by the Administration for 
the National Science Foundation, particularly during this time of tight 
budget constraints. However, we also want to emphasize that this is 
only a beginning in redressing some of the real-dollar declines in 
NSF's budget of recent years. A great amount of very important work 
will still go unfunded and greater contributions to society could be 
reaped with even greater increases.
    For example, in July 2005, the AAAS journal, Science celebrated 125 
years of providing the scientific community with the latest in peer-
reviewed research. In recognition of this important year, AAAS 
published a special issue on ``125 Questions: What Don't We Know?'' 
Answering virtually every one of those questions depends on NSF 
supported research! Examples of Science's 125 most important unanswered 
questions include:

        What are the limits of conventional computing?
        What are the limits of learning by machines?
        What is the most powerful laser researchers can build?
        What is the ultimate efficiency of photovoltaic cells?
        Will fusion always be the energy source of the future?
        Can researchers make a perfect optical lens?
        What causes ice ages?
        Are we alone in the universe?
        How does Earth's interior work?
        Are there earthquake precursors that can lead to useful 
        predictors?
        How much can the human life span be extended?
        What is the biological basis of consciousness?
        What controls organ regeneration?
        How do organs and whole organisms know when to stop growing?
        Why has poverty increased and life expectancy declined in sub-
        Saharan Africa?
        Why do some countries grow and others stagnate?

    Importantly, every NSF directorate--from the behavioral and social 
sciences through the life sciences, to math and physical sciences and 
engineering--plays a critical role in this important work. At a minimum 
we urge you to support the President's request for NSF. If it is 
possible to find the money to provide an increase above the President's 
request, it would be a sound investment in the future of our country 
and the quality of life of our citizens.

    Senator Hutchison. Thank you, Dr. Leshner.
    Dr. Odom, welcome.

STATEMENT OF DR. JEROME D. ODOM, EXECUTIVE DIRECTOR, UNIVERSITY 
                 OF SOUTH CAROLINA FOUNDATIONS

    Dr. Odom. Thank you, Madam Chair, Chairman Stevens. I'm 
really sincerely grateful for the opportunity to testify 
regarding the National Science Foundation's Experimental 
Program to Stimulate Competitive Research. This is better known 
as EPSCoR. Also, I'm happy to testify on efforts to enhance our 
Nation's competitiveness.
    I have been a faculty member in chemistry at the University 
of South Carolina for 37 years. I'm currently the Executive 
Director of the University of South Carolina foundations. I 
have served as Chair of the Department of Chemistry and 
Biochemistry. I have served as a Dean of the College of Science 
and Mathematics. And I've also served as Executive Vice 
President and Provost at the University of South Carolina.
    I'm also Chair of the EPSCoR/IDeA Foundation, a non-profit 
organization that promotes research and technology activities 
in the 25 States and 2 territories that are served by the NSF's 
EPSCoR program.
    I mention my background because I have had the opportunity 
to view the significant impact of NSF's EPSCoR program from 
several career vantage points in South Carolina. And in my role 
as EPSCoR/IDeA Foundation Chair, I have been able to confirm my 
positive views on the program, and they are shared by my 
colleagues throughout the community of EPSCoR states. I also 
mention my background because it has enabled me over the years 
to examine and participate in university and statewide research 
infrastructure development from several different viewpoints.
    I want to thank this Subcommittee, as well as the Committee 
as a whole, for its continuing and solid support for the 
National Science Foundation and for the EPSCoR program. We have 
found your interest and assistance over the years both 
gratifying and invaluable in growing and strengthening our 
programs. I would also like to thank Dr. John Marburger, the 
President's Science Advisor, for his support and for the 
meetings he convened at OSTP on our behalf.
    I am here today to endorse the American Competitive 
Initiative, the doubling of the NSF budget, and efforts to 
ensure that our Nation's research base continues to lead 
scientific and technological development. I share the concerns 
of those who believe that we must make new investments in basic 
research, particularly in the physical sciences and in 
engineering, if we are to mine the promises of 21st-century 
science. We are at a threshold of scientific potential unknown 
to previous generations. We are also at the threshold of 
changes in the research community wrought by a globalization of 
science, demographic changes in the universe from which we draw 
our talent, new competition for foreign students, an aging, and 
almost certainly to retire, academic and scientific 
professorate, and a workplace that draws master's and Ph.D. 
students who might have once remained in the academic research 
environment.
    I'm also here today to strenuously argue that in the surge 
to respond to competitiveness and innovation needs, that the 
contributions and potential of 25 States, half of our States, 
and two other jurisdictions cannot be ignored. Instead, this 
community of EPSCoR/IDeA States can, and must, play a prominent 
role in our knowledge-driven research community, society, and 
economy.
    I submit that the EPSCoR States have recognized areas of 
research excellence, students well positioned to pursue careers 
in science and engineering, increasing clusters of high-tech 
and small businesses often centered around our universities, 
faculty recruited nationally, and mounting success at securing 
NSF, NIH, and other Federal funding.
    I should also point out that we are exceedingly pleased 
that the National Science Foundation has asked the EPSCoR 
community to organize a workshop to develop a new vision for 
the EPSCoR program. I have been working with Dr. Kathie Olsen, 
the Deputy Director of NSF, and Dr. Nathaniel Pitts, the 
Director of the Office of Integrative Activities, to organize 
this workshop. We anticipate recommendations consistent with 
the American Competitiveness Initiative, the National Science 
Board's 2020 Vision, and other recent reports.
    Half of the states should not be missing from these 
initiatives. Every state needs to benefit from Federal support 
that creates a scientific research infrastructure that can 
respond to the special needs of that state. Every state should 
profit from the educational, economic, and technological 
benefits that come from having a strong research presence. 
Every state's students, most of them who will attend college 
within 100 miles of home, deserve an opportunity to participate 
in scientific research activities. And every state's research 
universities can contribute their own unique scientific 
expertise to our Nation's science and technology priorities.
    The benefits of strong academic research infrastructure 
must be more widely dispersed than they are today. NSF EPSCoR 
operates under the premise that by building merit-reviewed 
academic science research infrastructure, EPSCoR states' 
universities will develop a competitive research base with the 
people, equipment, and focus to become competitive for NSF and 
other Federal R&D funding.
    Madam Chair, I've put some examples of the impact that 
EPSCoR has had in South Carolina in my written testimony. I can 
tell you that there are examples throughout the 25 EPSCoR 
States that could be cited. And, in fact, we give those 
successes to NSF each year.
    The President's budget for FY07 calls for significant 
increases in the overall NSF research budget. The EPSCoR States 
fully support that increase. And we hope that this committee 
will direct NSF to make sure that all States are given the 
opportunity to participate in agency programs as the budget 
increases.
    Again, I thank you very much for your attention this 
afternoon.
    [The prepared statement of Dr. Odom follows:]

     Prepared Statement of Dr. Jerome D. Odom, Executive Director, 
                University of South Carolina Foundations

    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to testify today regarding the National Science 
Foundation's Experimental Program to Stimulate Competitive Research 
Program (EPSCoR) and efforts to enhance our Nation's competitiveness.
    I am Jerome Odom and I am Executive Director of the University of 
South Carolina Foundations. I have previously served as Chair of the 
University of South Carolina Department of Chemistry and Biochemistry, 
as Dean of the College of Science and Mathematics, and as Executive 
Vice President for Academic Affairs and Provost of the University of 
South Carolina. I also am Chair of the EPSCoR/IDeA Foundation, a non-
profit organization that promotes research and technology activities in 
the 25 states and 2 territories that are served by the National Science 
Foundation's EPSCoR program.
    I mention my background because I have had the opportunity to view 
the significant impact of the NSF EPSCoR program from several career 
vantage points in South Carolina and, in my role as EPSCoR/IDeA 
Foundation Chair, have been able to confirm that my positive views of 
the program are shared by my colleagues throughout the community of 
EPSCoR states. I also mention my background because it has enabled me, 
over the years, to examine and participate in university and statewide 
research infrastructure development from several different viewpoints.
    I want to thank this Subcommittee as well as the Committee as a 
whole for its continuing and solid support for the National Science 
Foundation and for the EPSCoR program. We have found your interest and 
assistance over the years both gratifying and invaluable in growing and 
strengthening our programs. I would also like to thank Dr. John 
Marburger III, the President's Science Advisor, for his support and for 
the meetings that he convened at OSTP on our behalf. And finally, I 
would like to thank the NSF for its new approach to the EPSCoR budget. 
For many years, Congress would increase the EPSCoR budget in the 
appropriations process, only to see it reduced in the following year's 
budget. This practice has been abandoned and we appreciate it.
    I am here today to endorse the American Competitiveness Initiative, 
the doubling of the NSF budget and efforts to ensure that our nation's 
research base continues to lead scientific and technological 
development. I share the concerns of those who believe that we must 
make new investments in basic research, in the physical sciences and 
engineering in particular if we are to mine the promises of 21st 
century science. We are at a threshold of scientific potential unknown 
to previous generations--and we are also at a threshold of changes in 
the research community wrought by a globalization of science, 
demographic changes in the universe from which we draw our talent, new 
competition for foreign students, an aging and almost certainly soon to 
retire academic and scientific professorate, and a workplace that draws 
Master's and Ph.D. students who might once have remained in an academic 
research environment.
    I am also here today to argue strenuously that in the surge to 
respond to competitiveness and innovation needs, that the contributions 
and potential of 25 states--half the states--and two other 
jurisdictions--cannot be ignored. Instead, this community of EPSCoR/
IDeA states can and must play a prominent role in our knowledge driven 
research community, society and economy. I submit that the EPSCoR 
states have recognized areas of research excellence, students well 
positioned to pursue careers in science and engineering, increasing 
clusters of high tech and small businesses--often centered around our 
universities, faculty recruited nationally and mounting success at 
securing NSF, NIH and awards from other funding agencies.
    The EPSCoR states graduate about 20 percent of our scientists and 
engineers annually. Several of our institutions have fine records in 
winning Goldwater Fellowships, NSF Graduate Fellowships and other 
prestigious research based fellowships. A number of our institutions 
ranked in the first tier of the recently announced Carnegie 
classifications. The current director of the National Science 
Foundation is, in part, a product of an EPSCoR state--although he 
probably would not recognize it today. And EPSCoR states have helped 
produce a number of other NSF directors and deputy directors as well as 
other leaders in the research community.
    Unfortunately, we still need help in rising above the 10 percent of 
Federal R&D funding that the 27 EPSCoR jurisdictions currently receive 
from NSF--and most other Federal departments and agencies. These 25 
states still need help in building our research infrastructure, 
broadening our representation on panels and advisory boards, enhancing 
our high speed computing and networking capabilities and pursuing new 
opportunities.
    I should point out that we are exceedingly pleased that the NSF has 
asked the EPSCoR community to organize a workshop to develop a new 
vision for the EPSCoR program. I have been working with Dr. Kathie 
Olsen, the Deputy Director of NSF, and Dr. Nathaniel Pitts, the 
Director, Office of Integrative Activities, to organize this workshop 
and we anticipate recommendations consistent with the American 
Competitiveness Initiative, the National Science Board's 2020 Vision 
and other recent reports. Half the states should not be missing from 
these initiatives.
    For the record, let me provide some background on the EPSCoR 
program and the states that participate. This is one successful Federal 
program which has addressed the past and current research funding 
disparity. This program was first established at the National Science 
Foundation in 1980 to assist in the development of a competitive 
research infrastructure in those states with a less intensive academic 
research capability and in response to Congressional concerns over the 
geographical imbalance in the allocation of funds for academic research 
and development (R&D).
    The National Science Foundation plays a pivotal role in academic 
research in our nation. The benefits of scientific research are central 
to improving our lives, and the lives of future American generations in 
areas related to energy, health, economic security, and national 
defense. Unfortunately, however, not all states benefit fully from 
NSF--and other Federal--research funding, which is relatively uneven. 
In FY 2005, for example, the 27 EPSCoR jurisdictions (25 states and 2 
territories) received only about 10 percent of all NSF research 
funding, even though the EPSCoR states have about one-fifth of the U.S. 
population and about the same shares of both doctoral universities and 
scientists who are engaged in research. By contrast, five states 
received 43 percent of all NSF R&D funding. As previously mentioned, 
NSF is not alone. Other research funding departments and agencies of 
the Federal Government have similar distributions.
    Every state needs to benefit from Federal support that creates a 
scientific research infrastructure that can respond to the special 
needs of that state. Every state should profit from the educational, 
economic and technological benefits that come from having a strong 
research presence. Every state's students--most of whom will attend 
college within 100 miles of home--deserve an opportunity to participate 
in scientific research activities, and every state's research 
universities can contribute their own unique scientific expertise to 
our Nation's science and technology priorities through research. The 
benefits of a strong academic research infrastructure must be more 
widely dispersed than they are today. There are indeed two sides to the 
benefit coin--the states deserve the opportunities which a strong 
research base provides and the Nation, I would submit, requires the 
participation of these states if it is to meet the challenges to 
research and talent production described in the 2006 Science and 
Engineering Indicators.
    NSF EPSCoR operates under the premise that, by building academic 
science research infrastructure, EPSCoR states' universities will 
develop a competitive research base with the people, equipment and 
focus to become competitive for NSF and other Federal R&D funding. The 
centerpiece of NSF EPSCoR is the Research Infrastructure Improvement 
(RII) awards, which are granted only after an intensive ``merit 
review'' by nationally competitive scientists and administrators. NSF 
EPSCoR also uses a ``co-funding'' mechanism under which funds 
appropriated to the EPSCoR program are utilized to match funds from the 
research directorate programs in order to fund proposals (including 
SBIR proposals) that were meritorious but might not be otherwise 
funded. Finally, NSF EPSCoR provides technical assistance and outreach 
efforts.
    The ``centerpiece'' support mechanism of the NSF EPSCoR effort is 
the Research Infrastructure Improvement (RII) awards, which have been 
highly successful. The reason most of the EPSCoR states are less 
competitive than they should be for NSF and other funding is that they 
do not have the research infrastructure--the facilities, the equipment, 
the number of researchers needed for competitive clusters or all the 
relevant expertise required for a cluster, the start-up packages for 
new hires, the time releases to pursue grants and collaborations that 
the more developed institutions have. Creating that infrastructure 
takes time and resources. The RII awards are a proven mechanism for 
advancing research infrastructure development. I would suggest that 
EPSCoR states, like the more developed states, need a minimum of 10 
years of individual RII support to build up the targeted science 
research areas. This time period is also used by NSF's Engineering 
Research Centers to develop focused areas. If given sustained support 
over time, remarkable results can be achieved.
    I would like to provide some examples of how NSF EPSCoR support has 
made a fundamental difference in the quality of academic research in 
South Carolina, and how this scientific research will impact the 
state's citizens:
    South Carolina's strategy to develop its intellectual resources has 
been to provide support for new junior faculty who bring with them 
access to specific technologies not represented within our targeted 
areas of S&T excellence and achievement: materials/nanoscience; 
biomaterials, engineering and technology; structural, chemical and 
cellular biology; and neuroscience and imaging. The following 
highlights illustrate the ongoing success of this statewide strategy. 
At the University of South Carolina, NSF EPSCoR program resources were 
used in the late 1980s for the hire of Dr. Michael Myrick and several 
other young faculty having expertise in new materials. Dr. Myrick has 
achieved full professor and is the innovative force behind Ometric, a 
2005 high-tech USC spin-off concentrating on the pharmaceutical, 
chemical and oil industries. Ometric is engaged with the world's top 
ten pharmaceutical companies, including Roche in Switzerland to enable 
inline control of chemical processes for pharmaceutical production. The 
company has recently attracted venture capital investments in excess of 
$8.5 million.
    Dr. Karen Burg, a hire in bioengineering at Clemson University who 
received an NSF PECASE Award (2002), was named to MIT Technology 
Review's 100 Young Innovators List for 2003 and was also granted tenure 
and promoted to the rank of Associate Professor two years early. At the 
Medical University of South Carolina, 5 new tenure-track faculty 
members have recently been hired into the Department of Physiology and 
Neuroscience, including one minority member. Extramural research 
funding in the department has grown over ten-fold. This growth has 
resulted in establishing internationally-recognized research teams with 
expertise in cellular mechanisms of visual and auditory systems.
    Mr. Chairman, I am happy to report that there are many more of 
these examples in South Carolina and the other states. In fact we 
report these successes to NSF each year.
    The President's Budget for FY 2007 calls for significant increases 
in the overall NSF research budget. The EPSCoR states fully support 
this increase. We also hope that this Committee will direct NSF to make 
sure that all states are given the opportunity to participate in agency 
programs as the budget increases. For example, in the area of cyber 
infrastructure, NSF is clearly positioned to play a lead role in 
advancing cyber research issues that will ultimately impact our 
Nation's wealth creation process. If only a few large universities in a 
small number of states are allowed to meaningfully participate in new 
cyber infrastructure programs, the Nation as a whole will lose. 
Similarly, benefits from basic research in areas that ultimately have 
an impact on energy or homeland security should accrue to all regions 
and states.
    As I mentioned previously, NSF has invited the EPSCoR community to 
provide a bottoms up recommendation to the NSF Director on what the NSF 
EPSCoR program should look like over the next 10 to 15 years. The 
EPSCoR states greatly appreciate this invitation and have submitted 
plans for a June 2006 Workshop on this topic. The willingness of NSF to 
engage its science and engineering client communities in planning 
strategic processes should be commended. We will provide a report to 
NSF on the Workshop outcomes, with copies to the Committee.
    I want to thank you for the opportunity to address the Subcommittee 
today. Thank you.

    Senator Hutchison. Well, I want to thank both of you for 
coming.
    Let me just say that both of you have said we need to have 
more going into research, and you've cited the amount that 
can't be funded that is legitimate research. I would just like 
to ask you two, after hearing the testimony earlier, if you 
think the right balance of resources at the National Science 
Foundation is there, or if you think there should be an even 
stronger, more targeted focus on the mission for American 
competitiveness for the future.
    Dr. Leshner. Why don't I begin?
    I believe that it's critically important to support basic 
research across the entire spectrum, from the behavioral and 
social sciences all the way through to the physical sciences 
and engineering. First of all, every major issue facing modern 
society, and every major issue facing our economic 
competitiveness will ultimately be multidisciplinary in nature. 
No single discipline will be able to answer all of the critical 
questions. Issues like innovation, the processes of innovation, 
the processes of technology transfer, the processes of 
translating basic research into applied findings, or even 
applied research, requires the integration of physical sciences 
or biological sciences with the behavioral and social sciences. 
So, I would be very uncomfortable if we were to give short 
shrift to those areas that are needed to help facilitate the 
actual implementation of the kinds of basic research that we're 
talking about supporting. And I have to say that there is no 
other agency that does this kind of research and that, in fact, 
is equipped to bring together the kinds of physical science 
initiatives that we all agree are necessary with the 
sophistication in behavioral and social science activities that 
will, in fact, make these innovations work.
    Senator Hutchison. If you are committed to America 
regaining and retaining our emphasis and our creativity that 
has spurred our economy for all these years, how can you say 
that over a billion dollars of legitimate research has not been 
funded, and yet we are funding a study on how large Hungarian 
firms have altered their ownership structures during rapid 
economic changes from 1989 to 2000, or how State legislators 
picking United States Senators before the 17th amendment would 
outweigh the focus that we're all committed to, and that is 
regaining America's strength in science and technology?
    Dr. Leshner. I would have to say that, from my perspective, 
that, in fact, we can't focus only on one national need or only 
on one national problem. I apologize, my wife is actually 
Hungarian, and I have spent a great deal of time, myself, 
looking at what's happened in Hungary. And I think, ultimately, 
there will be many lessons to be learned that will be 
applicable to our own future economic development. So, that one 
is relatively easier for me to justify. But I think that our 
country has had many other societal problems and many other 
national needs toward which basic science across the board 
should be applied. I don't think we should have only one 
priority. I'm in favor of the priority toward innovation. 
Please don't get me wrong. But I think, at the same time, that 
we would be lax if we didn't, in fact, devote substantial 
resources to the basic research that will help us meet and 
solve other kinds of national needs that will plague us into 
the future.
    Senator Hutchison. Dr. Odom, do you have anything to add--
--
    Dr. Odom. I would----
    Senator Hutchison.--on balance?
    Dr. Odom.--basically say that I do agree, in general, with 
Alan, but I would point out that I asked that we target more 
money into the physical and engineering science, and I 
certainly would ask you to do that.
    I could give you a good example, though, of a social 
phenomenon that we are studying at the University of South 
Carolina. We have a major nanotechnology area. Nanotechnology, 
as you know, is pervasive across all areas of science. Our 
philosophy department is leading a study on the societal impact 
of nanotechnology. And I think it's very relevant to what's 
happening in the science research that we understand how 
nanotechnology may affect society's behavior. And some of the 
things where we need to decide whether we want to go there or 
not.
    Senator Hutchison. I think there's a difference between the 
behavior that comes from technological innovation versus 
studying a history of a country that has just come into a 
democracy, versus one that has had 200 years of it. I think 
there is a difference between studying--a very interesting 
historical point, perhaps, but we're not going to elect 
Senators in State legislatures in the future, and I don't know 
how that could crowd out research from the foundation that we 
are looking to be the one that guides us into the next century 
of science and math. And if there is a mentality that political 
science and--having studies on elections when we have 
journalists that are covering it much better than someone who 
is looking at it for 6 months, I just, respectfully, disagree. 
And I----
    Dr. Odom. Madam Chair, I certainly see where you're coming 
from, but I have to agree with Dr. Bement that you really need, 
probably, to look at the proposal, because I know from personal 
experience, in looking at some of my faculty's titles, that I 
said, ``You cannot retain this title. You have to change the 
title. Do you understand what this title is saying to the 
person that doesn't look at the proposal?'' So, it's very 
important, I think, to look at the proposal, as well.
    Senator Hutchison.--well, what I think we ought to be 
looking at, speaking only for myself, is where these types of 
resources would best be used. And I'm looking at a lean, mean 
fighting machine in the National Science Foundation that is 
given a mission, and can accomplish a mission. I think the 
National Science Foundation has that capability, but I am 
concerned that it would be getting into things and spending 
this valuable money that would not be in pursuit of this 
mission. And I, for one, am going to try to see that we stay on 
target and we look for other places to do the sociology and the 
political science experiments.
    Senator Stevens?
    The Chairman. Yes, thank you, Madam Chairman.
    You know, I see a dichotomy here. And I understand what 
you're saying, Dr. Leshner, about the budget. In actual 
dollars, these budgets are up. And we have not inflation-
proofed science. We have not inflation-proofed defense. And we 
certainly haven't inflation-proofed the Senate. So, I don't 
know how accurate or fair the criticism is of this budget. This 
budget is up, I'm told, 7.9 percent over 2006. And that's a 
pretty good increase for any entity.
    But here's my dichotomy. I look at this, for instance, in--
there's money in this request for the construction of an Alaska 
region research vessel. This is a time when I'm called upon to 
support that, this is a time when I would like to see more kids 
going to college. I've seen more emphasis on high school trying 
to attract students to be interested in pursuing science and 
mathematics in college and go on to graduate school. I don't 
want to be offensive, but are you people thinking about just 
those who are already trained and what we can do for projects 
for them, or are we looking at how can we get more American 
students into college, get them more interested in high school? 
As a matter of fact, I'd like to get them interested before 
they even go to grade school. I think we could. The more that 
we can interest them in--when they're very young, in pursuing 
science and technology, I think the better off we'll be. What's 
the balance here?
    Dr. Leshner. Well----
    The Chairman. You're both talking about money for projects 
for people that have their Ph.D.s. I'm talking about money to 
attract children and students all the way up. And so, we have 
an expanding process for the future. Now, which is most 
important?
    Dr. Leshner. Both are most important, but----
    The Chairman. Well, you can't have that luxury.
    Dr. Leshner. Well----
    The Chairman. You only have so much money.
    Dr. Leshner. Well, my concern--our concern--and we express 
that, in fact, your point is right, that is, that we need to 
make a substantial investment in young people--and the younger, 
the better--and, in fact, that's why we're so concerned that, 
in fact, the proposed budget for science education at NSF is 
pretty meager. And----
    The Chairman. What about it, Dr. Odom? What do you think?
    Dr. Odom. I, personally, think there certainly is a 
pipeline problem. There are a lot of students here. By the time 
we get to the end of high school, there are not very many. I 
think one of the things we need to do is, we need to look at 
our colleges of education, schools of education. We have 
recently, at the University of South Carolina, done away with 
an education major for middle schools and high schools. If 
you're going to teach biology or chemistry, then you have to 
major in that area. We need, in some way, as has been said 
previously, to generate teachers who excite students again. And 
that's not happening right now. And I think that has to do much 
with the preparation of the teachers that we have in science 
and mathematics.
    The Chairman. Well, you know, I heard one of our 
colleagues, Senator Sununu, address some of the things that 
money has been spent for. If that had been something I had done 
on the floor, it would have been called ``pork.'' It would have 
been called an ``earmark.'' How do we get to this process now? 
We want an emphasis on the future. We want to expand the 
interest of this country in training our young people in 
science and technology. We want to catch up with what's 
happening in China and India and the rest of the world, and we 
want a generation to come along who, when they come out of it, 
they're not at the bottom of the rung, as we heard before from 
Dr. Washington. What do we do to do that? How do we bring about 
the emphasis we want if we continue to give money to NSF and to 
other agencies--and money is spent where the people involved 
think that that is an interest we should follow? And, with due 
respect, Dr. Leshner, I don't really care what's going on in 
Hungary. I care what's going on in the grade schools of 
America.
    Now, I think we have got to find some way to constrain this 
down so you spend the money where we tell you that it should be 
spent.
    Dr. Leshner. Well----
    The Chairman. Is that unfair?
    Dr. Leshner. I think that Congress, of course, has the 
right to set priorities. You are elected by us to do that. I 
think that your point is absolutely right. And I think that NSF 
is actually a wonderful example of a government agency that has 
devoted tremendous resources toward not only helping to develop 
future scientists and engineers, but to educate all young 
people and try to bring them into the possibility of being 
full, productive citizens in this science- and technology-heavy 
economy. And so, that investing in NSF science education, in 
fact, accomplishes exactly the kind of a goal that you're 
talking about. And, you know, frankly, I think you're totally 
right. I think it's a major national need. I think the ``Rising 
Above the Gathering Storm'' spoke about it, the Summit on 
Competitiveness spoke about it, and NSF has given great 
attention to this over the years. You're right.
    The Chairman. Well, thank you very much to both of you.
    Thank you. I've got another appointment.
    Senator Hutchison. Thank you, Mr. Chairman.
    Well, I thank all of you. This has been a very important 
hearing. We are looking to the National Science Foundation to 
be really good and really focused.
    Another study, determinants of husband-initiated and wife-
initiated divorces, should that have crowded out one of your 
basic science research projects that didn't get funded at the 
National Science Foundation, or could that be done by private 
groups? There are many charitable groups. There are social 
groups, all kinds of opportunities for studying husband-
initiated and wife-initiated divorces that don't take away from 
research that we need to make America more science oriented, 
more technology oriented, to prepare our children. Tell me that 
we can bring the National Science Foundation in better focus to 
take this mission.
    Dr. Leshner. Well, I'm convinced that the National Science 
Foundation and its leadership is well equipped to shepherd and 
to steer the direction in which the research that they are 
supporting is being done. And I, for one, have great confidence 
in their ability to meet exactly the kinds of goals that you're 
talking about. I can't account for any individual project, as 
was suggested, without knowing much more about it. But, 
overall, if we look at the over-50-year track record of NSF and 
its programs, it has yielded fantastic benefits for the country 
in virtually every sphere. So, I think we're giving you some of 
that assurance, I hope.
    Senator Hutchison. Dr. Odom, I think that what you just 
described as going on in the University of South Carolina with 
regard to education degrees is really at the forefront of what 
we are seeing in our studies of how we can better educate our 
teachers to teach. And one of the ways, certainly, is to get 
them to major in the courses that they are going to teach our 
children. Middle and high school, I think that's certainly a 
valid distinction from elementary school. But----
    Dr. Odom. It is.
    Senator Hutchison.--that is something that I have 
championed for a long time, and it is also in the report, that 
we have to equip our teachers. In fact, we put in the report 
scholarships for teaching teachers to get master's and Ph.D. 
degrees in their course subjects, so that they can be better 
teachers and encourage our young people to go into science and 
math and technology.
    So, I hope we can see that as another of the successes that 
this initiative will bring. And I think you're ahead of the 
curve.
    Dr. Odom. Thank you.
    Senator Hutchison. Thank you very much for coming. We 
appreciate it. We hope that we can all work together for our 
mutual goal. Thank you.
    Our hearing is adjourned.
    [Whereupon, at 4:06 p.m., the hearing is adjourned.]


                            A P P E N D I X

 Prepared Statement of Hon. Daniel K. Inouye, U.S. Senator from Hawaii

    Today we will hear about the budget and priorities of the National 
Science Foundation (NSF). I am pleased to see a healthy increase of 
nearly 8 percent proposed for the Foundation. I am particularly pleased 
that with this budget NSF will be able to begin clearing its 
construction project backlog, making way for some truly exciting 
projects like the Advanced Technology Solar Telescope (ATST) to be 
funded in future budgets.
    The NSF has a remarkable record of success. Since its inception in 
1950, it has funded Nobel prize winners, contributed to the development 
of products from the Internet to Magnetic Resonance Imaging or MRI, and 
expanded the boundaries of human knowledge.
    Like most of my colleagues, I believe NSF works. Whether it's 
understanding how people respond to warnings, radically improving fuel 
cell technology, or understanding the environmental impacts of 
nanotechnology, NSF research can improve our lives and our economy. But 
the agency's focus is not, and should not be, the immediate problems of 
the day. Rather, NSF researchers are looking at problems and issues 
that will occur fifteen or twenty years into the future, before the 
rest of us know what they are.
    I look forward to hearing how NSF intends to move forward, 
particularly on ensuring that small states, like Hawaii, can share in 
NSF's growing budget.
                                 ______
                                 
 Prepared Statement of Neal Lane, Malcolm Gillis University Professor; 
 Senior Fellow, James A. Baker III Institute for Public Policy at Rice 
        University; Former Director, National Science Foundation

    Madam Chair and Members of the Committee. My name is Neal Lane, and 
I am the Malcolm Gillis University Professor and a Senior Fellow of the 
James A. Baker III Institute for Public Policy at Rice University. As a 
former Director of the National Science Foundation (NSF) and Science 
Advisor to former President Clinton, I particularly appreciate having 
this opportunity to comment, for the record, on the NSF budget request 
for FY 2007. I regret that I was unable to accept the invitation to 
appear in person at the NSF hearing on May 2.
    Let me say at the outset that I am very pleased with the 
President's request for NSF, as a key part of his American 
Competitiveness Initiative. The future of America's economic 
competitive position depends critically on innovation that comes from 
new knowledge, new technologies, and a highly skilled workforce. NSF is 
the only Federal agency with the mission to pursue the furthest 
frontiers of science and engineering research across all disciplines 
and to assure that the Nation has a high caliber science and 
engineering workforce. By all accounts it has carried out that mission 
efficiently and effectively.
    The success of NSF can be traced to three factors: (1) an ambitious 
but flexible mission that is clearly in the national interest; (2) 
access to many of the world's best and brightest researchers, primarily 
in our universities, who serve as peer reviewers, compete for grants 
and carry out excellent research; and (3) an outstanding staff, 
comprised of accomplished and dedicated professionals, including 
experienced scientists, who believe in NSF and work hard to ensure its 
success. For these reasons, NSF has enjoyed strong bipartisan support 
over the decades, regardless of which party controls the White House or 
the Congress. This committee is no exception, and I thank you for that 
support.
    I would like to offer comments on two issues, the role of NSF in 
the President's American Competitiveness Initiative and the general 
matter of how NSF sets priorities.
    In the President's State of the Union address, he stated the 
purpose of his American Competitiveness Initiative (ACI) to encourage 
American innovation and strengthen our Nation's ability to compete in 
the global economy noting that ``this ambitious strategy will increase 
Federal investment in critical research, ensure that the United States 
continues to lead the world in opportunity and innovation, and provide 
American children with a strong foundation in math and science.''
    These three goals, which I'll simply refer to as ``research, 
innovation, and education'' are related and, in fact, interdependent. 
No Federal agency addresses those interconnections better than the NSF. 
Research requires creativity and innovation at the ``laboratory 
bench.'' That innovative process results in the discoveries of new 
knowledge and new technologies that lead to industrial innovation--new 
methods, new products and new services--in U.S. companies.
    Research in the Nation's universities also leads to the best 
educated and trained science and engineering graduates in the world. 
They are the true ``translators'' of innovation and technology from the 
research laboratory to the marketplace. Many of them also go on to 
educate and train the next generation of innovators for America's 
future.
    Thus, it is entirely appropriate that NSF, whose mission is 
squarely at the heart of this bold initiative, and whose laser-like 
focus is on ``ideas, people, tools, and organizational excellence'' 
(its GPRA goals), has been chosen to have a key role in the ACI. By 
employing its successful competitive, peer review system to evaluate 
unsolicited proposals from the Nation's brightest scientists and 
engineering researchers, NSF can assure the Congress and the American 
people that scientific merit and excellence, not political interests, 
set the ultimate priorities for the ideas and people that receive 
support. That system has worked well for half a century to provide 
science and engineering excellence for the Nation. The highest priority 
must be to insure that this ``gold standard'' system continues to work.
    That said, it is entirely appropriate for Congress to ask the NSF 
how, at the programmatic level, the agency determines its priorities--
how much it invests in the natural and social sciences, in education 
and human resources development, in research facilities and other areas 
and, at least in broad terms, what the ``returns'' on those investments 
are likely to be. Since questions were raised at the hearing about 
NSF's programs in education and in the social sciences, let me comment 
on these two areas.

NSF's Education Programs
    I do not find anyone who disagrees with the notion that U.S. K-12 
education, including math and science education, is in serious need of 
reform and that the future of the Nation's competitiveness depends on 
having a well educated and well trained workforce. I have not looked in 
detail at the current portfolio of NSF programs in Education and Human 
Resources (HER) development. But, traditionally, NSF's HER programs 
have been focused on research and science-based educational reform--on 
determining how children learn, how teaching is best done, what science 
and math curricula work best, and how best to manage change in these 
areas. And, NSF has approached some of these questions by working in 
partnership, as appropriate, with teachers and school systems. NSF has 
managed its HER initiatives by defining programs to stimulate new ideas 
and, then, by evaluating through peer review the unsolicited, 
competitive proposals in the same way it does for research. My 
impression is that many of these programs have been quite effective. 
Those that were not were evaluated and modified or terminated. That's 
as it should be; and not much different from how the science and 
engineering research programs are managed. Unless NSF is allowed to 
take risks in devising programs and funding proposals to address such a 
critical national need as science and math education, we are likely to 
miss the most important breakthroughs. The Department of Education, of 
course, has a very large Federal role in K-12 education. But, because 
of statutory limitations and other constraints, it cannot do many of 
the things in HER that NSF does so well.
    I encourage the Subcommittee to continue to work with NSF to 
understand the objectives of its programs in HER and how those 
objectives relate to the larger goals of the agency and the ACI.

NSF's Support of the Social Sciences
    During the time I was Director, I was called upon to explain NSF 
support of the social sciences. I am not an expert in any area of the 
social sciences, as my Rice faculty colleagues will be quick to tell 
you. But, I do have a sense from my years as Rice Provost and my tenure 
at NSF of the complexity of the disciplines, the challenge of ensuring 
that the highest standards are applied in evaluating and performing the 
research, and the quality of the researchers who have chosen to work in 
these areas. I also understand that some project titles and 
descriptions may seem irrelevant to many of today's challenges, 
particularly those addressed by the ACI. But, what I found, when I 
looked into many of these areas and projects more closely, was that the 
researchers were asking important questions that could help us better 
understand people, institutions, and societies in ways that did, 
indeed, address important implications faced by businesses, 
governments, schools and caregivers. In reality, all societies are 
human, community, and institution driven. Understanding and improving 
their behaviors can only benefit individuals and nations in their 
diverse and complex relationships.
    I encourage the Subcommittee to continue to work with NSF to 
understand the objectives of its programs in the social sciences and 
how those objectives relate to the larger goals of the agency and the 
ACI.
    Finally, Madam Chair, I want to express my appreciation to you for 
your personal commitment and to the Subcommittee for its interest in 
science and engineering research and education and its support for the 
President's American Competitiveness Initiative. Thank you as well for 
allowing me the opportunity to offer these comments for the record.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Kay Bailey Hutchison to
                        Dr. Arden L. Bement, Jr.

American Competitiveness Initiative
    Question 1. Within the proposed funding for the American 
Competitiveness Initiative (ACI), how much new money would you expect 
to be able to apply to basic research in the hard sciences, assuming 
the entire requested amount is appropriated?
    Answer. NSF's FY 2007 Budget Request includes approximately $3.67 
billion in support of basic research. In general, 40 to 50 percent of 
these funds are available for new awards and activities. In addition to 
basic research, NSF funds support applied research, R&D facilities, 
non-investment activities (such as Polar Logistics), and education and 
training.

    Question 2. As you know, the Gathering Storm report addresses 
issues beyond those which are the focus of the ACI. What new activities 
or projects do you plan to undertake to address those additional 
concerns, and do you have sufficient resources to support those 
activities within your FY 2007 Budget Request?
    Answer. NSF's FY 2007 Budget Request provides support to boost the 
momentum of discovery in areas of exceptional promise and to capitalize 
on emerging opportunities. NSF will emphasize four priorities that will 
strengthen the science and engineering enterprise:

        Advancing the Frontier
        Broadening Participation in the Science and Engineering 
        Enterprise
        Providing World-Class Facilities and Infrastructure
        Bolstering K-12 Education

    Within these priorities, increased support will be provided for 
research efforts in areas such as cyber trust and cybersecurity, 
nanoscale science and engineering, sensors for the detection of 
explosives, polar research, elementary particle physics, and science 
metrics. NSF is committed to fostering the fundamental research that 
delivers new knowledge to meet vital national needs and to improve the 
quality of life for all Americans.

NASA Cooperative Research
    Question 3. In years past, and currently, NSF has engaged in 
cooperative research activity with NASA, perhaps most notably in joint 
and supporting activities in the Antarctic. As NASA realigns its own 
research priorities to support the Vision for Exploration, some science 
activities are being delayed or discontinued altogether, and yet much 
of the planned NASA research has much to offer. This question is two-
fold:

        (a) To what extent are any existing cooperative research 
        activities with NSF and NASA being affected by the shifts in 
        NASA programs, and

        (b) Is there any effort by NSF to review science and research 
        activities reduced or cut by NASA for its relevance to NSF 
        science priorities, and consider whether NSF may be in a 
        position to assume support for that research?

    Answer. (a) The effect of NASA's research reorientation on existing 
NSF-NASA cooperative activities are varied. In some instances, such as 
interagency working groups, these changes have little impact on NSF. 
(Existing cooperative research activities between the NSF Office of 
Polar Programs and NASA have thus far been unaffected). However in 
other instances, usually where substantial NASA support is involved, 
programs may be greatly affected. These impacts can be direct 
(cancellation of programs) and indirect (proposals submitted to NSF as 
a ``back up'' to NASA requests). One emerging trend is a shift to NSF 
of funding requests for science previously supported by NASA. In some 
disciplines, such as the Ocean Sciences and Astronomy, the increase is 
marked. Additionally, for some science communities one of the greatest 
concerns is NASA's ability to support follow-up missions in areas 
clearly outside of NSF's charge (e.g., satellites). NSF cannot support 
such activities and their transition to other Federal agencies does not 
look encouraging. Yet, the data produced from these programs are 
crucial to basic research that NSF can and does support.

    (b) Currently NSF has no formal agency-wide plan to review programs 
previously supported by NASA. Principal investigators are free to 
compete for funding of ``NASA-type'' research through NSF's well-
established merit review process. The likelihood of receiving NSF 
support is no different than in other areas, which means some 
outstanding science will be delayed or not done at all and NSF's 
funding rate will likely decrease.
Homeland Security: Cyber Trust and IEDs
    Question 4. In your written testimony, you make reference to 
several items in the FY 2007 budget request which support research 
essentially intended to enhance the Nation's ability to counter threats 
to our homeland security:

        (a) $35 million within the Networking and Information 
        Technology Research and Development (NITRD) program for Cyber 
        Trust. This is to ensure that computers and networks that 
        support our national infrastructure, as well as in homes and 
        offices, can function in the face of a cyber attack. You 
        indicate this is part of an overall effort in cybersecurity 
        research totaling $97 million.

        (b) $384 million in Homeland Security basic research, including 
        fundamental research on sensors to improve the detection of 
        explosives, including Improvised Explosive Devices (IEDs).

    These are obviously important research activities that should be 
undertaken. The question is, what is the reasoning for them being 
funded through the National Science Foundation and not directly by the 
Department of Homeland Security? Or, in the case of the IEDs, by the 
Department of Defense?
    Answer. For both cyber security and sensor technology, the National 
Science Foundation's investments are part of broader, coordinated 
interagency efforts that complement work being carried out by the 
Department of Homeland Security, Department of Defense, and others.
    (a) NSF, Homeland Security, and Defense all play key roles in cyber 
security research and development. Federal support for cyber security 
R&D must include the civilian, military, and intelligence sectors in 
order to be comprehensive. A February 2005 report by the President's 
Information Technology Advisory Committee, Cyber Security: A Crisis of 
Prioritization, urges a rethinking of the Federal investment balance 
between military/intelligence and civilian cyber security R&D. The 
military and intelligence communities rely on the commercial Internet 
and commercial providers of computing systems and software for the bulk 
of their own operations. It is only through fundamental research in 
civilian cyber security that we can hope to address the strategic and 
pervasive vulnerabilities of our national IT infrastructure.
    NSF has the only substantial Federal program in civilian cyber 
security research, an activity it has supported for many years. The 
majority of the work is undertaken at academic institutions and is 
unclassified. As at earlier stages of the digital revolution, Federal 
investment in fundamental research is required to fill the pipeline 
with new concepts, technologies, infrastructure prototypes, and trained 
personnel. Research supported by the military/intelligence sectors and 
the private sector mainly has a narrow focus and requires short-term 
results. The security of our Nation's IT infrastructure that affects 
our society and economy at large depends on the fundamental research in 
civilian cyber security supported by NSF.

    (b) NSF's investment in new technologies for sensors and sensor 
systems is a vital component of our nation's portfolio directed at the 
prediction and detection of explosives and related threats. Related 
research will target advances in the analysis, interpretation, and 
evaluation of data gathered from sensors, as well as the integration of 
this data with information available from a wide variety of other 
fields and sensing systems. NSF focuses on frontier science and 
engineering research, which establishes fundamental principles and 
uncovers new knowledge. Other mission agencies, such as the Departments 
of Homeland Security, Defense, Energy, and Justice are primarily 
involved in device development and system integration, and they benefit 
greatly from NSF's innovative approaches and potential breakthrough 
discoveries. As explosives and similar threats become more 
sophisticated and more prevalent, cutting-edge discoveries will be 
critical to remaining ahead of the curve. NSF also will establish 
interagency working groups to ensure that efforts are not duplicated, 
and that each mission agency is able to leverage the results of the 
entire R&D community.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Kay Bailey Hutchison to
                           Dr. Jerome D. Odom

    Question 1. What are the greatest challenges currently facing the 
EPSCoR program (Experimental Program to Stimulate Competitive Research) 
and the IDeA program (Institutional Development Award)?
    Answer. The Experimental Program to Stimulate Competitive Research 
(EPSCoR) at the National Science Foundation and the Institutional 
Development Award (IDeA) Program at the National Institutes of Health 
are each faced with the challenge of building academic basic research 
infrastructure in a huge segment of the Nation's research universities 
with limited resources. For example, NSF EPSCoR works with universities 
in 25 states and 2 territories that employ about 20 percent of academic 
U.S. scientists and engineers who are engaged in research. Yet, the FY 
2006 budget for NSF EPSCoR was $100 million, and the NSF EPSCoR office 
has less than a dozen staff members. It is highly unlikely that this 
small group can effectively reform science and technology in half of 
the U.S. states with an average of less than $4 million per year. The 
IDeA program essentially has had a flat budget for the last two years, 
while tasked with building up the bio-medical research infrastructure 
in a comparable number of states that have traditionally not received 
significant NIH support.
    Recently, senior NSF management recognized this problem and 
provided support to the University of South Carolina to host an EPSCoR 
2020 Workshop, to address how best to reform NSF EPSCoR and bring more 
of the Foundation's resources to bear in creating a competitive 
research environment in this large segment of U.S. institutions of 
higher education. As part of this exercise, the need for NSF EPSCoR to 
coordinate with the NIH IDeA program and other agencies with EPSCoR-
like programs was recognized. The key findings of this Workshop are 
provided below in the answer to Question 3.

    Question 2.  What do you see as the greatest potential contribution 
of EPSCoR and IDeA to the Nation's emerging crisis in competitiveness, 
innovation and ``STEM'' (Science, Technology, Engineering and 
Mathematics) education programs and initiatives?
    Answer. The EPSCoR/IDeA states have an important role to play in 
the American Competitiveness Initiative (ACI) and other areas of 
national priority. Over the last century, the Nation's research 
universities have always played an essential role in providing science 
and technology (S&T) support in addressing challenges related to 
defense, health, agricultural reform, etc. The Congress and 
Administration have both recognized that (1) the strength of the 
Nation's academic S&T enterprise is going to once again help the Nation 
maintain its competitive edge in world markets, and (2) this U.S. 
higher education S&T enterprise is itself under tremendous strain from 
competition abroad.
    The ``greatest contribution'' that the EPSCoR/IDeA states' 
universities and researchers can make is to once again provide 
essential S&T expertise and support in addressing the National 
challenges. Efforts to reform STEM education, increase competitiveness, 
and further develop S&T-based innovations require that all the 
universities in the U.S. must be engaged. EPSCoR/IDeA states contain 
approximately one-fifth of U.S. academic researchers, and nearly one-
quarter of U.S. science doctoral institutions. It is time to recognize 
that this significant segment of the Nation's S&T arsenal must be 
employed to enhance the basic research infrastructure that supports the 
Nation's S&T enterprise.
    Additionally, the EPSCoR states and their research universities 
provide a unique capability at this time in our nation's 
competitiveness endeavors. The NSF requires that state committees be 
involved in the EPSCoR programs. These committees, by necessity, are 
involved in state economic development and strategic plans. They have a 
good understanding of how to work with both legislators and industrial 
interests and they understand setting metrics, evaluation and 
assessment. All of these factors are vitally critical to being 
competitive in a global S&T economy.

    Question 3. In your view, are the programs and science priorities 
of NSF currently in an appropriate balance? What improvements do you 
believe could be made in either the content or the process for 
establishing those priorities?
    Answer. As mentioned earlier, NSF recently sponsored an EPSCoR 2020 
Workshop that addressed this (and other) issues. The Workshop achieved 
consensus on the following issues:

  <bullet> NSF should transform EPSCoR from a traditional RFP process 
        (RII Solicitation guidelines) to one that responds to a new 
        method in which the guidelines encourage each state to develop 
        its unique research capabilities. The NSF EPSCoR's RII 
        guidelines should be more general, leaving states latitude to 
        select their strengths, partnerships, strategies, investments, 
        endpoints, and themes. This approach recognizes that states are 
        at different places along the ``success trajectory'' and that 
        they have different levels of resources to invest.

  <bullet> If EPSCoR states are to become more competitive, they must 
        be involved in the current themes that are recognized as 
        important by the broader research community. In reciprocal 
        fashion, these national themes will move forward more rapidly 
        and with more credibility if there is broad participation from 
        the Nation's research community. It is to the advantage of both 
        NSF and EPSCoR to intentionally involve EPSCoR in NSF's 
        programmatic themes. EPSCoR states could be organized into a 
        ``test bed'' for national themes because there is an existing 
        organization (mentioned in Question 2. above) among these 
        states which could be efficiently mobilized to test ideas, 
        program initiatives, parts of a theme, etc.

  <bullet> In order for the EPSCoR community to achieve our capacity-
        building objectives and contribute to the American 
        Competitiveness Initiative we must restructure EPSCoR's basic 
        research infrastructure (RII) program to be longer in duration, 
        larger in size and with more flexibility. The current Research 
        Infrastructure Improvement (RII) awards which have been 
        EPSCoR's core funding mechanism have increasingly been 
        diminished in recent years in terms of funding levels, and are 
        now dwarfed by other NSF and NIH funding awards such as 
        Centers-type grants and COBRE grants. Perhaps most importantly, 
        the recent effort to narrow the focus of RII grants accompanied 
        by a proliferation of grant requirements has reduced their 
        effectiveness. A revitalized RII award structure would help to 
        stimulate new state commitments to long-term science and 
        technological reform.

  <bullet> The NSF EPSCoR ``co-funding'' mechanism needs to be 
        strengthened. We have become aware, through our interactions 
        with the NSF Research Directorates that within NSF there is a 
        limited understanding, especially by new Program Officers, of 
        how the co-funding mechanism functions. We would like to see a 
        more aggressive approach on the part of the EPSCoR Office in 
        pursuing co-funding opportunities, educating new NSF program 
        staff about its purpose, as well as more transparency in how 
        the money is distributed.

  <bullet> We would like to see senior NSF management, the EPSCoR 
        Office, and others at NSF help our researchers become more 
        integrated into NSF and other Federal S&T agencies' activities. 
        We are pleased to see recent progress in this area. EPSCoR 
        states now have two National Science Board members, a member of 
        PCAST, and three members of the Cyber Infrastructure Advisory 
        Committee. This is a good beginning. We would also like to see 
        an increase in the number of NSF ``rotators'' from EPSCoR 
        states, as well as in the number of our researchers who are 
        invited to serve on NSF merit review panels and oversight 
        committees.

  <bullet> NSF and OSTP are positioned to encourage greater 
        coordination among Federal agencies with EPSCoR-like programs. 
        In a time of scarce Federal S&T resources, it is imperative 
        that the seven agencies with EPSCoR-like programs ensure that 
        their efforts are coordinated, where appropriate, at both the 
        state and Federal levels.

  <bullet> There is strong support within the EPSCoR community to 
        relocate the EPSCoR Office so that it is in better alignment 
        with the Research Directorates. EPSCoR's primary mission has 
        been, and continues to be, to build basic research 
        infrastructure in our universities. For many years, the 
        community has felt that EPSCoR's placement within the Education 
        and Human Resources (EHR) Directorate was inconsistent with its 
        research mission. We recommend moving EPSCoR to an organization 
        (e.g., OIA) with a greater scientific research orientation.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Kay Bailey Hutchison to
                        Dr. Warren M. Washington

    Question 1. What steps are you taking at the National Science Board 
to evaluate the proposed American Competitiveness Initiative (ACI) and 
the Gathering Storm report and other assessments of the state of U.S. 
science, innovation and competitiveness, and to determine whether a 
reassessment of NSF research priorities is required to better address 
the problems identified in those reports and proposals?
    Answer. The Board applauds the recommendations for research in the 
American Competitiveness Initiative, reflecting the National Academies 
report, Rising Above the Gathering Storm, to increase federal 
investment in long-term basic research by 10 percent each year over the 
next 7 years; and to double the NSF budget in 10 years. We continue to 
also strongly support the NSF Authorization of 2002, which currently 
authorizes a doubling of the then NSF budget to approximately $10 
Billion by 2007.
    We support in concept the recommendation of Rising Above the 
Gathering Storm to encourage funding of high-risk, high payoff 
research, with the understanding that such research also presumes a 
high failure rate. Among other activities in FY 2007, the Board expects 
to complete its study of NSF identification, development, review and 
funding of transformative research, and provide new guidance for NSF 
policies regarding such research. Previously, in 2004, in response to 
the NSF Authorization Act of 2002 the Board released A Report to 
Congress on the Budgetary and Programmatic Expansion of the National 
Science Foundation ``Fulfilling the Promise'' (NSB 2004-15) ( http://
www.nsf.gov/nsb/documents/reports.htm ), providing its recommendations 
for allocation of the authorized increase in the NSF Budget provided 
for under the Act. To enhance innovation through research, the Board 
recommended that increases in the budget in the amount of $1B be 
allocated to increasing the average size and duration of research 
grants to enable them to pursue more complex and innovative research, 
while reducing the time needed to prepare proposals. The Board 
recommended an additional $1B specifically to pursue novel ideas and 
research approaches with the potential to transform S&E fields.
    The Board has recently released its 2020 Vision for the National 
Science Foundation (NSB 05142) ( http://www.nsf.gov/nsb/documents/
reports.htm ), in which we reinforce our support of additional funding 
toward the two aforementioned objectives among others. We are currently 
working with the Foundation management to develop and implement a new 
NSF Strategic Plan designed to achieve the Board's 2020 Vision for NSF.
    The Board and Foundation support early career grants, recommended 
by Rising Above the Gathering Storm, and expansion of the NSF CAREER 
program, with the caveat that such expansion is not ``carved out'' from 
the existing NSF R&RA budget. Rather we support expansion of this 
program through additional appropriations, so as not to sacrifice other 
priorities for expansion of NSF's budget (i.e., increasing the size and 
duration of awards and increasing funding for novel ideas and 
approaches). The Board applauds the additional new funding support for 
physical sciences, engineering, mathematics and computer sciences, 
which were identified for attention in the Board's 2003 report, The 
Science and Engineering Workforce/ Realizing America's Potential (NSB-
03-69) (http://www.nsf.gov/nsb/documents/reports.htm).
    NSF has been selected to play major roles in research support under 
the President's American Competitiveness Initiative including:

  <bullet> Investing in the generation of fundamental discoveries that 
        produce valuable and marketable technologies;

  <bullet> Providing world-class facilities and infrastructure that are 
        essential to transform research and enable discovery.

    Both roles in support of frontier research are fundamental to NSF's 
mission in research and education. In the new NSF Strategic Plan now 
under development, the Board and Foundation will continue to set 
priorities for research based on guidelines provided by Congress and 
the President, interagency coordination, input from the scientific 
communities--including reports such as Rising Above the Gathering 
Storm, and NSF's highly competitive merit-review process, second to 
none for openly and objectively identifying, reviewing, selecting, 
funding and providing stewardship for the very best STEM proposals and 
programs in research and education.

    Question 2. Are there any challenges or obstacles in the structure 
and implementation of the relationship between the Board and the 
Foundation that this Subcommittee should be aware of or which we should 
examine in more detail in our oversight responsibility?
    Answer. Beginning with the Fiscal Year 2003 appropriations act and 
the National Science Foundation (NSF) Authorization Act of 2002 
Congress provided new staffing and budgetary authorities to ensure the 
National Science Board could effectively fulfill its statutory 
responsibility to provide independent oversight of the NSF and 
independent advice to the President and Congress on national policy 
issues related to science and engineering research and education. In 
August 2003, the Chairman of the Board exercised these new authorities 
by hiring a new Board Executive Officer, who reports directly to the 
Chairman and serves as the Director of the National Science Board 
Office. Since that time, the Board has provided various updates to 
Members of Congress on the Board's progress in implementing those 
authorities.
    Essential to the conduct of Board business is the small, yet 
adequate, core of full-time senior policy, clerical and operations 
staff of the Board Office who are hired by and report to the Board's 
Executive Officer. The Board Office staff provide both the independent 
Board resources and capabilities for coordinating and implementing S&E 
policy analyses and development, and the operational support that are 
essential for the Board to fulfill its mission. This core of Board 
Office capabilities is augmented by NSF for some administrative 
accounting, contract processing, purchasing, personnel, logistical and 
related support. In addition, the Board Office augments it own 
capabilities with short-term temporary contractual support as needed 
for various Board endeavors. These external advisory policy research 
and assistance services are especially critical to support production 
of Board reports and supplement the Board Office's general research and 
administration services to the Board. External contractual services 
provide the Board and its Office with the flexibility to respond 
independently, accurately and quickly to requests from Congress and the 
President, and to address issues raised by the Board itself. The 
Board's rationale for securing outside consultants to supplement Board 
Office staff also comes in part from the Board's interest in obtaining 
additional analyses, perspectives, and opinions concerning various 
Board issues, unencumbered by any potential conflict of interest that 
may derive from NSF staff that are hired and supervised by NSF 
management. The Board is currently in discussion with NSF management 
concerning some previously reported administrative delays with NSF 
processing of a Board Office contract for such external services. We 
believe that resolution to this matter will be made shortly and in a 
manner that will not adversely impact the Board's ability to conduct 
independent policy analyses and oversight of NSF.

    Question 3. In your statement, you indicated some concern that 
funding for the Educational and Human Resources Directorate and the 
Biological Sciences Directorate are not being as well funded as they 
might be. What, in general, are the kinds of research that you would 
like to see expanded in those directorates?
    Answer. Even as the Congress and President show their strong 
commitment to a significant increase in funding for science, 
engineering, mathematics and technology to support discovery and 
innovation, the Board urges attention to the need for balance in NSF's 
broad portfolio of investments. We are especially concerned that the 
President's FY 2007 NSF Budget request provides for only a 2.5 percent 
increase from FY 2006 for the NSF Education and Human Resources 
Directorate, which remains more than 3 percent below its FY 2005 level. 
STEM Education is a core mission of NSF, which not only promotes 
research, but also shares in the responsibility for promoting quality 
math and science education as intertwining objectives at all levels of 
education across the United States.
    The NSF Mathematics and Science Partnerships (MSPs) are important 
tools for addressing a critical--but currently very weak--link between 
pre-college and higher education, as well as between K-16 education and 
other organizations in the community, including business and informal 
science. The NSF MSP Program provides for collaboration between pre-
college and college to promote excellence in teaching and learning, 
therefore facilitating the transitions for students from kindergarten 
through the baccalaureate in STEM disciplines. The added benefit for 
our Nation is those students who do not choose STEM careers become the 
informed, scientifically-literate voting citizens we need for the 21st 
century.
    NSF has the mandate, depth of experience, and well-established 
relationships to build the partnerships for excellence in STEM 
education. The Board, therefore, is concerned with the decision to fund 
no new starts in the NSF budget for MSPs. We stand by our 2004 formal 
statement (http://www.nsf.gov/nsb/documents/testimony.htm) urging that 
continued, full funding of the MSP Program at NSF be sustained over the 
long-term as an essential component of a broader coordinated Federal 
effort to promote national excellence in science, mathematics and 
engineering.
    With respect to the Biological Sciences, we note that the funding 
has decreased as a share of the NSF budget over the last 8 years, and 
this year's budget proposal again provides for the lowest increase to 
the Biological Sciences of any of the research directorates. This 
directorate essentially had a zero budget increase from FY 2005 to FY 
2006. We are concerned that the perceived generous funding for life 
sciences, due to the dramatic budget increases over the last 10 years 
for the National Institutes of Health (NIH), may in fact color the 
perception of the adequacy of the support for basic research in the 
biological sciences in the NSF budget. We would like to point out the 
widespread recognition that advances in biological sciences foster 
applications that often lead to commercial innovation. The relationship 
between NSF and NIH in the biological sciences is similar to the 
relationship between NSF and the Department of Defense or the 
Department of Energy in the physical sciences. NSF funds basic research 
in the biological sciences, while the NIH funds biomedical research, 
which is, by its nature, one step further toward applications. Without 
basic research. there is no foundation for future biomedical research. 
We urge recognition of the importance of the basic biological sciences, 
in which some of the most spectacular advances in science have occurred 
over the last 50 years, beginning with the discovery of the structure 
of DNA by Watson and Crick in 1953. This and many other biology-focused 
discoveries have been recognized with numerous Nobel prizes.
    We underscore that our concern for funding levels of the NSF 
Biological Sciences and Education and Human Resources directorates is 
completely compatible with a balanced National STEM research and 
education investment portfolio and our support for much needed 
increases in the budget for the physical sciences, engineering and 
mathematics and computer sciences.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
